<html>
<title> - AN EXAMINATION OF THE MARITIME NUCLEAR SMUGGLING THREAT AND OTHER PORT SECURITY AND SMUGGLING RISKS IN THE UNITED STATES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


AN EXAMINATION OF THE MARITIME NUCLEAR SMUGGLING THREAT AND OTHER PORT 
           SECURITY AND SMUGGLING RISKS IN THE UNITED STATES

=======================================================================

             Committee on Transportation and Infrastructure
                           Serial No. 114-48
                     Committee on Homeland Security
                           Serial No. 114-79

                             JOINT HEARING

                               BEFORE THE

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION,

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                                AND THE

             SUBCOMMITTEE ON BORDER AND MARITIME SECURITY,

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 7, 2016

                               __________

      Printed for the use of the Committee on Transportation and 
         Infrastructure and the Committee on Homeland Security
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
        
                               ____________
                               
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
20-639 PDF                   WASHINGTON : 2016                    
_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a7d6a755a796f696e727f766a3479757734">[email&#160;protected]</a>  



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
MARK MEADOWS, North Carolina         RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
ROB WOODALL, Georgia                 ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 LOIS FRANKEL, Florida
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   JARED HUFFMAN, California
CRESENT HARDY, Nevada                JULIA BROWNLEY, California
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
MIKE BOST, Illinois

                                 7_____

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
BOB GIBBS, Ohio                      CORRINE BROWN, Florida
MARK SANFORD, South Carolina         JANICE HAHN, California
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
CARLOS CURBELO, Florida              JULIA BROWNLEY, California
DAVID ROUZER, North Carolina         PETER A. DeFAZIO, Oregon (Ex 
LEE M. ZELDIN, New York                  Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)

                                  (ii)

  


                     COMMITTEE ON HOMELAND SECURITY

                   MICHAEL T. McCAUL, Texas, Chairman

LAMAR SMITH, Texas                   BENNIE G. THOMPSON, Mississippi
PETER T. KING, New York              LORETTA SANCHEZ, California
MIKE ROGERS, Alabama                 SHEILA JACKSON LEE, Texas
CANDICE S. MILLER, Michigan, Vice    JAMES R. LANGEVIN, Rhode Island
Chair                                BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          CEDRIC L. RICHMOND, Louisiana
TOM MARINO, Pennsylvania             WILLIAM R. KEATING, Massachusetts
LOU BARLETTA, Pennsylvania           DONALD M. PAYNE, Jr., New Jersey
SCOTT PERRY, Pennsylvania            FILEMON VELA, Texas
CURT CLAWSON, Florida                BONNIE WATSON COLEMAN, New Jersey
JOHN KATKO, New York                 KATHLEEN M. RICE, New York
WILL HURD, Texas                     NORMA J. TORRES, California
EARL L. ``BUDDY'' CARTER, Georgia
MARK WALKER, North Carolina
BARRY LOUDERMILK, Georgia
MARTHA McSALLY, Arizona
JOHN RATCLIFFE, Texas
DANIEL M. DONOVAN, Jr., New York

                   BRENDAN P. SHIELDS, Staff Director
                    JOAN V. O'HARA, General Counsel
                    MICHAEL S. TWINCHEK, Chief Clerk
                I. LANIER AVANT, Minority Staff Director

                                 ______

              Subcommittee on Border and Maritime Security

                   MARTHA McSALLY, Arizona, Chairman

LAMAR SMITH, Texas                   FILEMON VELA, Texas
MIKE ROGERS, Alabama                 LORETTA SANCHEZ, California
CANDICE S. MILLER, Michigan          SHEILA JACKSON LEE, Texas
JEFF DUNCAN, South Carolina          BRIAN HIGGINS, New York
LOU BARLETTA, Pennsylvania           NORMA J. TORRES, California
WILL HURD, Texas                     BENNIE G. THOMPSON, Mississippi 
MICHAEL T. McCAUL, Texas (Ex         (Ex Officio)
Officio)

              PAUL L. ANSTINE, Subcommittee Staff Director
                   JOHN DICKHAUS, Subcommittee Clerk
         ALISON NORTHROP, Minority Subcommittee Staff Director

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter from the Subcommittee on Coast Guard 
  and Maritime Transportation of the Committee on Transportation 
  and Infrastructure.............................................    vi

                               TESTIMONY
                                Panel 1

Rear Admiral Linda L. Fagan, Deputy Commandant for Operations, 
  Policy, and Capabilities, U.S. Coast Guard.....................     4
L. Wayne Brasure, Ph.D., Acting Director, Domestic Nuclear 
  Detection Office...............................................     4
Todd C. Owen, Executive Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection.................     4
Anne Harrington, Deputy Administrator for Defense Nuclear 
  Nonproliferation, National Nuclear Security Administration.....     4

                                Panel 2

Jennifer A. Grover, Director, Homeland Security and Justice, U.S. 
  Government Accountability Office...............................    24
Gregory H. Canavan, Ph.D., Senior Fellow, Los Alamos National 
  Laboratories...................................................    24
David A. Espie, Director of Security, Maryland Port 
  Administration, Port of Baltimore, on behalf of the American 
  Association of Port Authorities................................    24
James H.I. Weakley, President, Lake Carriers' Association........    24

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. John Garamendi of California................................    45

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Rear Admiral Linda L. Fagan......................................    49
L. Wayne Brasure, Ph.D...........................................    53
Todd C. Owen.....................................................    59
Anne Harrington..................................................    69
Jennifer A. Grover...............................................    78
Gregory H. Canavan, Ph.D.........................................    96
David A. Espie...................................................   104
James H.I. Weakley...............................................   109

                       SUBMISSIONS FOR THE RECORD

Rear Admiral Linda L. Fagan, Deputy Commandant for Operations, 
  Policy, and Capabilities, U.S. Coast Guard, responses to 
  requests for information from the following Representatives:

    Hon. Bob Gibbs of Ohio.......................................    17
    Hon. Carlos Curbelo of Florida...............................    22
Article entitled, ``U.S. Ports Want More Action on Dirty Bomb 
  Prevention,'' Maritime Executive, July 6, 2016, submitted by 
  Hon. Sheila Jackson Lee of Texas...............................   116
Letter of July 1, 2016, to Hon. Jeh Johnson, Secretary, 
  Department of Homeland Security, from 47 Members of Congress, 
  submitted by witness David A. Espie............................   118
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


 
AN EXAMINATION OF THE MARITIME NUCLEAR SMUGGLING THREAT AND OTHER PORT 
           SECURITY AND SMUGGLING RISKS IN THE UNITED STATES

                              ----------                              


                         THURSDAY, JULY 7, 2016

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                             joint with the
      Subcommittee on Border and Maritime Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:08 a.m. in 
room 2167, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the Subcommittee on Coast Guard and Maritime 
Transportation) presiding.
    Mr. Hunter. The subcommittee will come to order.
    The subcommittee is meeting today to examine the efforts of 
the Department of Homeland Security to prevent the smuggling of 
nuclear materials in U.S. ports and other port security risks. 
This hearing follows last year's hearing which examined the 
prevention and response to a dirty bomb at a U.S. port. And we 
had a classified hearing yesterday. We are going to make sure 
and skirt around those topics which we talked about yesterday 
and we are not going to talk about today in an open hearing.
    It seems clear that Islamic extremists aspire to carry out 
a radiological or nuclear attack, so this is a threat that we 
obviously need to take seriously. If anybody succeeds even 
once, the consequences would be catastrophic. To be prepared, 
we must ensure that we have the proper screening and response 
protocols in place.
    Today we will continue to review these efforts as well as 
the broader governmental efforts to reduce threats to our ports 
and our borders. I want to thank Chairwoman Martha McSally, who 
will be here momentarily, and the House Committee on Homeland 
Security for agreeing to explore this important topic in a 
joint hearing.
    The security of our maritime ports and borders remains a 
serious concern for the United States. Our Nation relies on the 
commerce that flows through our ports including the more than 
41 percent of foreign trade that is moved on vessels every 
year. Providing adequate security requires an innovative, 
multifaceted approach which has to begin far from U.S. shores 
and has to be flexible enough to keep pace with the ever-
changing threats to our national security.
    After 9/11, security measures were enacted to better 
protect our homeland by expanding efforts to detect and deter 
threats overseas. These efforts include screening cargo 
manifests before containers are loaded onto a U.S.-bound ship, 
scanning shipping containers that have been determined to be 
high-risk, screening ship personnel data, and tracking ships 
and their cargo as they make their way to our shores. Despite 
these efforts, we want to make sure that we are still employing 
the best technology to detect the presence of nuclear or 
radiological material in containerized cargo.
    However, containers are not the only avenue for smuggling 
harmful materials and weapons into the U.S. ports. Small 
vessels pose an equally devastating threat and are just as 
difficult as containers to determine legitimate uses from 
potential threats. Commercial and recreational small vessels 
can easily blend into the daily activity of U.S. waterways and 
can be converted to stand-off weapons platforms, or used as 
direct attacks to deliver a waterborne IED [improvised 
explosive device].
    We will hear from our witnesses today on how the Federal 
Government deploys a whole-of-government, layered approach 
including law enforcement, technology, and intelligence to 
detect, deter, and interdict potential threats. These internal 
measures are combined with treaties and agreements with foreign 
governments to conduct cooperative enforcement efforts 
overseas. That is one of the things that I found most 
interesting about what we are going to hear about today, is how 
far out we reach and the nations that work with us to make us 
safe back here at home.
    I look forward to continuing our discussion from last year 
and learning more about the ongoing efforts to keep our ports 
and Nation safe.
    With that, I yield to Chairwoman McSally.
    Ms. McSally. Thank you, Mr. Chairman. And thanks for our 
witnesses' comments today on this very important topic. We had 
a good discussion in the classified realm yesterday, and look 
forward to a good discussion today on this very serious threat.
    We know that terrorist organizations, in my lifetime, in 26 
years in the military, have been plotting and wanting to do the 
maximum amount of harm to our country and our way of life and 
our interests. The worst-case scenario that both my colleague 
and I, as we served in the military, was always a combination 
of terrorist organizations and weapons of mass destruction of 
various kinds. And in my role in homeland security we have 
addressed some of these other biological, chemical threats. 
Today I appreciate that we are highlighting the radiological 
and nuclear potential threats of that nexus between terrorist 
organizations getting access to these deadly weapons.
    We learned in my time in the military that threat equals 
capability plus intent. We have seen, through open-source 
reporting, that they clearly have the intent, you know, to 
maximize harm against America, the West, and our way of life. 
Certainly they have declared that intent through whatever means 
possible, and the devastation that would come from having such 
a capability in an attack would be severe, as we know, not just 
for the death and the loss of life and the impact on the 
economy, but also the fear that it would invoke, which is, you 
know, certainly a motivation of the terrorists.
    So, as we look at now the capability--and I know we are in 
an unclassified realm--I look forward to hearing from our 
experts today about what the threat is. Now, we don't want to 
be tipping our hand or highlighting to the enemy any of our 
vulnerabilities, so we need to be very careful as we are 
highlighting what these threats are, so that we can make sure 
that we are doing everything we can through a whole-of-society, 
whole-of-government, with our partners, in order to address and 
mitigate and detect and interdict these threats.
    We need to make sure that we highlight this in hearings 
like today so that we are doing all that we can to make sure 
that we are stopping any sort of attack from a radiological or 
a nuclear weapon from a terrorist organization like ISIS 
[Islamic State of Iraq and Syria].
    There are many pathways that these individuals could use in 
order to bring a weapon like this into our country. I live in a 
southern border district. That is certainly one pathway. Coming 
in through air, coming in through maritime, through our 
seaports of entry, small boats, all these types of things are 
ones that--we have seen the drug supply come through. And so I 
am interested to, you know, hear from our witnesses 
specifically about the threat. And again, to the maximum extent 
possible in the unclassified realm, you know, what we are doing 
about it and what more we could do about it.
    We do know that there has been just, again, recent reports 
revealing radiological nuclear material being lost or stolen 
several times a year, especially in Russia and other former 
Soviet States. Just as an example, several years ago FBI 
[Federal Bureau of Investigation] was involved in a sting 
operation that disrupted the sale of cesium which would have 
been enough to contaminate several city blocks. So this is the 
type of threat.
    The weapons-grade nuclear capability and the radiological 
threat that we are very interested in investigating further 
today, we appreciate the expertise and the service of our 
witnesses. And I yield back.
    Mr. Hunter. I thank the gentlelady. Mr. Garamendi is 
recognized. You are all lucky. You get four opening statements 
instead of two today. You're welcome.
    Mr. Garamendi. Reviewing my statement earlier today and 
realizing there are four opening statements, Mr. Chairman, I 
would ask unanimous consent that my statement be in the record, 
and I will simply summarize very, very quickly, so that we can 
get on with hearing from the witnesses.
    We have got about 95,000 miles of coastal area in the 
United States. We have got 360 ports of various sizes around 
the Nation, and islands, and so forth, all of which present an 
opportunity for bad things to happen. We are going to talk 
about those nuclear issues, the biological issues, all of 
those, and I look forward to hearing from the witnesses.
    A very complex issue in many, many ways, but one that we 
have to deal with. Dirty bombs, real bombs, biological issues, 
and quite possibly we are now learning with Zika and yellow 
fever that it may just be a human that is infected coming in 
from an African port or a South American port that could 
initiate a major public health crisis in the United States.
    And so these threats are real, they have to be addressed. 
The witnesses are well versed in these issues, and I am looking 
forward to hearing from them. And with that I yield back.
    Mr. Hunter. I thank the ranking member. Mr. Vela is 
recognized.
    Mr. Vela. I would essentially adopt the comments of my 
colleagues and, for the sake of time, I would just say that I 
represent about 200 miles of the Gulf of Mexico along the--
right along the U.S.-Mexico border in south Texas. But for the 
sake of time I would also yield back.
    Mr. Hunter. All right. We begin our first panel today with 
Rear Admiral Linda Fagan, the Coast Guard's Deputy Commandant 
for Operations, Policy, and Capabilities.
    Rear Admiral Fagan, you are recognized to make your 
statement.

TESTIMONY OF REAR ADMIRAL LINDA L. FAGAN, DEPUTY COMMANDANT FOR 
  OPERATIONS, POLICY, AND CAPABILITIES, U.S. COAST GUARD; L. 
    WAYNE BRASURE, PH.D., ACTING DIRECTOR, DOMESTIC NUCLEAR 
      DETECTION OFFICE; TODD C. OWEN, EXECUTIVE ASSISTANT 
  COMMISSIONER, OFFICE OF FIELD OPERATIONS, U.S. CUSTOMS AND 
 BORDER PROTECTION; AND ANNE HARRINGTON, DEPUTY ADMINISTRATOR 
FOR DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    Admiral Fagan. Good morning, Chairman Hunter, thank you. 
Chairman McSally, Ranking Member Garamendi, Ranking Member 
Vela, and distinguished members of the subcommittees, it is my 
pleasure to be here today to discuss the Coast Guard's efforts 
in preventing smuggling in U.S. ports. I thank you for your 
strong support of the Coast Guard and our men and women in 
uniform. It is a pleasure to be here alongside my Department of 
Homeland Security colleagues, Assistant Commissioner Owen, 
Director Brasure, as well as our Department of Energy partner, 
Deputy Administrator Harrington.
    My complete statement has been provided to the subcommittee 
and I ask that it be entered into the record.
    By leveraging our expansive legal authorities, offshore 
maritime presence, and utilizing a layered approach to maritime 
border security, the Coast Guard pushes maritime border 
security and enforcement out well beyond the Nation's shoreline 
and exclusive economic zones. As a member of the intelligence 
community, and through strategic relationships with our 
interagency and international partners, we detect, deter, and 
counter threats as early and as far from the U.S. shores as 
possible.
    The persistent threats that we face include illegal 
migration, human trafficking, illicit flow of drugs, and 
smuggling of weapons of mass destruction. My testimony today 
will focus on the layered Coast Guard efforts to prevent 
smuggling of nuclear devices into U.S. ports. However, many of 
the initiatives, programs, and capabilities I will highlight 
enable the Coast Guard to prevent and respond to a multitude of 
threats we face.
    The Coast Guard's efforts to prevent smuggling of nuclear 
devices into U.S. ports and shores begins overseas. By 
leveraging international partnerships, as well as the 
International Port Security Program, the Coast Guard performs 
in-country port security assessments to determine the 
effectiveness of security and antiterrorism measures of our 
foreign training partners.
    Since the program's inception in 2004, we have visited 150 
countries and evaluated 1,200 port facilities. The Coast Guard 
maintains more than 40 maritime bilateral law enforcement 
agreements and 11 bilateral proliferation security initiative 
ship-boarding engagements. These agreements facilitate 
international cooperation and allow Coast Guard teams to board 
and search vessels at sea suspected of carrying illicit 
shipments of weapons of mass destruction, their delivery 
systems, or related materials.
    The Coast Guard's membership within the intelligence 
community provides global situation awareness, analysis, 
interagency collaboration, opportunities with various 
counterterrorism components, including the Central Intelligence 
Agency, National Counterterrorism Center, and the Federal 
Bureau of Investigation. Direct, timely intelligence is a key 
enabler across a broad spectrum of threats.
    Cargo crosses the ocean and nears our shores. Coast Guard 
personnel located with the Customs and Border Protection 
National Targeting Center screens ship, crew, and passenger 
information. In 2015 there were over 121,000 notice-of-arrivals 
and 32 million crew and passenger records screened by this 
team.
    As ships arrive in American waters, our authorities through 
the Maritime Transportation Security Act provide a robust 
regime of security plan approval and compliance inspections for 
both maritime facilities and vessels.
    Area Maritime Security Committees provide a recurring forum 
for key agencies and partners to address risks at each port. 
Through these committees we have training programs that focus 
on preventing and responding to transportation security 
incidents, and these are regularly exercised in the ports. And, 
for example, since 2003 the Coast Guard has partaken or 
participated in over two dozen dirty bomb scenarios through 
this exercise program.
    Focusing specifically on the nuclear threat, in 2004 the 
Coast Guard developed and implemented a Servicewide Maritime 
Radiation Detection Program, partnering with the Domestic 
Nuclear Detection Office. We use their standards in all of our 
ships, and boarding officers are equipped with detection 
devices.
    Providing significant and unique maritime response 
capabilities, the Coast Guard's Maritime Security Response 
Teams are able to detect and identify nuclear and radiological 
material and protect personnel in both routine and hostile 
situations. Should the country face a--knowledge of a 
radiological or nuclear device being suspected of smuggling, we 
would use the interagency maritime operational threat response 
protocols to bring in interagency coordination together to 
ensure an appropriate Government response.
    The Coast Guard's response to a nuclear detonation in the 
maritime domain would be part of a larger interagency effort to 
bring the most appropriate national resources and capabilities 
to bear. We focus on the safety of American lives and the swift 
restoration of commerce. Our unique maritime authorities, 
jurisdiction, and capabilities ensure the Coast Guard can 
provide security, command-and-control, transportation, and 
support to other agencies that need to operate in the maritime 
today.
    For over two centuries the U.S. Coast Guard has safeguarded 
our Nation's maritime interests. A nuclear threat response 
scenario would require a whole-of-government coordinated 
interagency effort. The Coast Guard's layered security 
strategy, day-to-day operations, and coordination across the 
Government ensure that we are well-positioned to address the 
broad range of offshore and coastal threats.
    I have only touched on a few of these layers in my opening 
comments, and I look forward to discussing these and other 
vital work the men and women of the Coast Guard do every day 
during your questions.
    Thank you for the opportunity to appear before you today, 
and thank you for your continued support of the United States 
Coast Guard. Thank you.
    Mr. Hunter. Thanks, Admiral. Our next witness is Dr. Wayne 
Brasure, the Acting Director of the Domestic Nuclear Detection 
Office.
    Dr. Brasure, you are recognized.
    Dr. Brasure. Good morning, Chairman Hunter, Chairwoman 
McSally, Ranking Member Garamendi, Ranking Member Vela, and 
distinguished members of the subcommittees. Thank you for the 
opportunity to be here with my colleagues from the Department 
of Homeland Security and the Department of Energy to discuss 
efforts to prevent smuggling at U.S. ports.
    An attack on U.S. territory with a nuclear device or 
radiological dispersal device would have grave consequences. At 
the Domestic Nuclear Detection Office, or DNDO, we have a 
singular focus: preventing nuclear terrorism. It cannot be 
accomplished by any one agency. In fact, it takes a whole-of-
enterprise approach. We work closely with our Federal, State, 
local, tribal, territorial, and international partners, as well 
as those in the national laboratories, industry and academia.
    DNDO was established to develop, in coordination with the 
interagency, the Global Nuclear Detection Architecture, or the 
GNDA. The GNDA is a framework for detecting, analyzing, and 
reporting nuclear and other radioactive materials that are out 
of regulatory control.
    In our work to enhance the GNDA we rely on a critical triad 
of intelligence, law enforcement, and technical capabilities. 
Our strategy is to provide effective technologies to well-
trained law enforcement and public safety officials as they 
conduct intelligence-driven operations. Through a multilayered, 
multifaceted defense-in-depth approach, our objective is to 
make nuclear terrorism a prohibitively difficult undertaking 
for the adversary. We take into account the geographic layers 
of the GNDA, both international and domestic, as well as the 
pathways through which the material can be transited, such as 
the maritime and aviation pathways.
    And so, our efforts to secure the homeland begin overseas, 
working closely with our interagency partners which have 
responsibility for implementing the international component of 
the GNDA. With these partners and with multilateral 
organizations, the DNDO works to develop and share guidance, 
best practices, and training for the international community.
    Ultimately, building a Global Nuclear Detection 
Architecture relies on sovereign foreign partners developing 
and enhancing their own national detection programs. The 
collective efforts abroad help ensure that illicit nuclear or 
other radioactive material or devices can be interdicted before 
they arrive at our shores.
    As part of DNDO's responsibilities to implement the 
domestic component of the GNDA, we equip DHS [Department of 
Homeland Security] operational components with radiation 
detection systems for use at our ports of entry, along our land 
and maritime borders, and within the United States. In 
particular, DNDO equips both U.S. Coast Guard and U.S. Customs 
and Border Protection with radiation detection equipment.
    Today all Coast Guard boarding parties are equipped with 
detection devices. At our seaports of entry, CBP [U.S. Customs 
and Border Protection] scans nearly 100 percent of all incoming 
containerized cargo for radiological and nuclear threats. DNDO 
has acquired systems for the Coast Guard and CBP to detect 
threats when encountering small vessels. We recently procured a 
new technology called Human Portable Tripwire to enable our 
partners to more quickly detect, identify, and adjudicate 
alarms relating to nuclear and other radioactive sources.
    Building operational capability across the Federal, State, 
and local enterprise is also critical. DNDO is presently 
working with 36 of the Coast Guard's Area Maritime Security 
Committees. Through these committees we can share information 
and intelligence, assist with alarm adjudication, and provide 
technical support to our operational partners as they build 
their nuclear detection programs.
    In the event of an interdiction of radioactive materials or 
an act of radiological or nuclear terrorism, the U.S. 
Government would need rampant accurate attribution based on 
sound scientific evidence. For this reason, we enhance the 
Nation's capabilities in technical nuclear forensics which, 
when coupled with intelligence and law enforcement information, 
support such determinations.
    To bolster readiness of the U.S. Government's nuclear 
forensics capability in the maritime environment, we recently 
led the planning for and also participated in an exercise where 
an interagency task force coordinated the collection of 
simulated forensic evidence at sea.
    Advancing the operational readiness of partners will ensure 
that leadership has the evidence so they can hold fully 
accountable any State, terrorist group, or other nonstate actor 
that supports or enables terrorist efforts to obtain or use 
weapons of mass destruction. An act of nuclear terrorism would 
have profound consequences for our Nation and the world. With 
your support, we will continue to work with our partners to 
bolster defenses to secure maritime ports and our homeland from 
nuclear terrorism.
    Thank you for this opportunity, and I look forward to your 
questions.
    Mr. Hunter. Thank you, Doctor. Our next witness is Mr. Todd 
Owen, Executive Assistant Commissioner of the Office of Field 
Operations for U.S. Customs and Border Protection.
    Mr. Owen, you are recognized.
    Mr. Owen. Thank you. Good morning, Chairman Hunter, 
Chairwoman McSally, Ranking Members Garamendi and Vela, and 
esteemed members of the subcommittees. Thank you for the 
opportunity to testify here today to discuss the role of U.S. 
Customs and Border Protection in the prevention and detection 
of smuggling activities at our ports of entry, an important 
responsibility we share with our partners here today.
    As the lead DHS agency for border security, CBP works 
closely with our domestic and international partners to protect 
the Nation from a variety of dynamic threats, including those 
posed by containerized cargo arriving at our air, land, and sea 
ports. Before my appointment as the Executive Assistant 
Commissioner for the Office of Field Operations in February of 
2015, I served in numerous capacities within CBP, most recently 
as the Director of Field Operations for the Greater Los Angeles 
area, including the L.A./Long Beach seaport. I have also served 
as the Executive Director over all of CBP's cargo security 
programs, and I know firsthand how complex cargo security 
operations are, and how valuable our programs and partnerships 
are to our national security.
    Since the September 11 terrorist attacks, CBP has 
established security partnerships, enhanced our targeting and 
risk assessment programs, and invested in advance technology, 
all essential elements to our multilayer approach to protecting 
the Nation from the arrival of dangerous materials, including 
radiological and nuclear materials, at our ports of entry. CBP 
has several key programs that enhance our ability to assess 
cargo for risk, examine high-risk shipments at the earliest 
possible point, and increase the security of the supply chain. 
And I would like to highlight just a few of these efforts 
today.
    First, CBP receives advanced information on every cargo 
shipment, every vessel, and every person before they arrive at 
our ports of entry.
    Second, our advance targeting techniques use the advanced 
data to enhance our ability to assess risk associated with 
these cargo shipments and with the entities involved. The 
National Targeting Center, using the Automated Targeting 
System, has developed state-of-the-art capabilities to assess 
cargo shipments before they are laid and on board vessels 
destined for the United States.
    Third, our partnerships, those with DHS and our other 
Federal partners, private industry, and foreign counterparts, 
increase information-sharing and enhance our domain awareness, 
our targeting capabilities, and the ability to intercept 
threats approaching our borders.
    Pushing our security efforts outward, the Container 
Security Initiative, which was established specifically to 
prevent the use of maritime containerized cargo to transport a 
weapon of mass effect or destruction, enables CBP to work with 
foreign authorities to identify and examine potentially high-
risk maritime containers at the first foreign ports, before 
they are laid and on board a vessel destined for the U.S. CBP 
now has 60 Container Security Initiative ports in 35 countries, 
and we screen over 80 percent of the maritime containerized 
cargo before it heads to the United States.
    And finally, in partnership with DNDO, CBP has deployed 
nuclear and radiological detection equipment, including 
radiation portal monitors, radio isotope identification 
devices, and personal radiation detectors, nationwide. Using 
radiation portal monitors at our ports of entry, CBP is able to 
scan 100 percent of all mail and express consignment parcels, 
100 percent of all truck cargo and personally owned vehicles 
arriving from Canada and Mexico, and 100 percent of all 
arriving maritime containerized cargo for the presence of 
radiological or nuclear materials.
    CBP's detection technology, targeting capabilities, and 
partnerships are strategically aligned to prevent the arrival 
of dangerous materials or a dangerous weapon at a U.S. port. 
However, if such an event were to occur, CBP has established 
contingency plans and standard procedures to ensure a 
coordinated and effective response. In the event CBP detects a 
suspected radioactive source, all personnel are trained in 
secure, isolate, and notify protocols. The cargo is secured, 
the immediate area is isolated, and the scientific experts are 
notified. CBP scientists at the CBP Teleforensic Center in 
northern Virginia will confer with the Department of Energy, 
and, when necessary, refer the findings to the FBI to 
coordinate the appropriate response. All of these elements are 
part of a comprehensive cargo security strategy that enables 
CBP to identify and address the potential use of containerized 
cargo to transport radiologic weapons before they arrive at our 
Nation's ports of entry.
    Thank you for the opportunity to testify today, and I will 
be happy to answer your questions.
    Mr. Hunter. Thanks, Mr. Owen. Our next witness is Ms. Anne 
Harrington, the Deputy Administrator for Defense Nuclear 
Nonproliferation at the National Nuclear Security 
Administration.
    Ms. Harrington, you are recognized.
    Ms. Harrington. Thank you. Chairman Hunter, Chairwoman 
McSally, Ranking Members Garamendi and Vela, and distinguished 
members of the subcommittees, thank you for giving me the 
opportunity to discuss the Department of Energy's National 
Nuclear Security Administration's efforts to detect, deter, and 
investigate the illicit smuggling of nuclear and other 
radioactive materials. My full statement has been provided and 
I ask that it be entered into the record.
    I am also very pleased to be appearing today with 
colleagues from the Department of Homeland Security. You should 
look at the four witnesses in front of you as a team, because 
that is, indeed, how we work.
    Securing nuclear and radiological materials from theft, 
diversion, or trafficking is a critical element of U.S. 
national security strategy. Despite significant progress over 
the last 20 years by international cooperative programs, gaps 
remain and interest in acquiring these materials persist.
    The threat landscape as we see it today includes over 30 
countries with weapon-usable nuclear material stored at 
hundreds of sites, with the largest inventory in Russia; more 
than 100 countries with radiological material stored at 
thousands of sites, many of which lack adequate security; a 
demonstrated black market for nuclear and radiological 
materials, as shown by recent interdictions in Georgia and 
Moldova; and terrorist groups that have taken root in 
ungoverned or undergoverned spaces, compounded by the emergence 
of Daesh or ISIL [Islamic State of Irag and the Levant], a 
pseudostate with demonstrated capability to conduct 
international terrorist operations and an expressed interest in 
acquiring and using radiological and possibly nuclear materials 
against Western interests.
    We take our job seriously because the consequences are so 
high. The use of a high-yield, improvised nuclear device, or 
IND, in a major U.S. city would cause hundreds of thousands of 
fatalities. The use of a radiological dispersal device, or RDD, 
would not cause the same loss of human life, but would be 
highly destabilizing, with broad physical, economic, and 
psychological consequences, demanding significant resources and 
a multifaceted response.
    To counter this threat, the U.S. Government uses multiple 
means to prevent terrorists from obtaining nuclear and 
radiological materials. Within my organization, the Office of 
Defense Nuclear Nonproliferation, our Global Material Security 
program specializes in collaborating with partners worldwide to 
build sustainable capacity to secure nuclear weapons, weapons-
usable materials, and radiological material, and to detect and 
investigate illicit trafficking of those materials.
    We serve as the farthest exterior ring of protection for 
the United States. Our approach is simple: our first line of 
defense is to secure nuclear and radiological material at the 
source, and not allow it to be removed from regulatory control. 
Recognizing that this may not be enough, we have a second line 
of defense: our Nuclear Smuggling Detection and Deterrence 
program, or NSDD.
    NSDD is a critical component of the Global Nuclear 
Detection Architecture. We deploy radiation detection systems 
internationally at official crossing points along rugged, 
unofficial borders in disputed territories which we call green 
borders, and along maritime borders, or blue borders, and at 
internal locations for law enforcement operations, working with 
our foreign partners, much the way the Department of Homeland 
Security works within the United States.
    More importantly, our goal is to build the capacity, 
infrastructure, and relationships necessary to sustain these 
efforts into the future, and to cooperate with us in those 
efforts. The GNDA is predicated on a layered defense of law 
enforcement, intelligence, and technology to maximize a system 
of detection and deterrence capability. In the words of DHS's 
Domestic Nuclear Detection Office, NSDD is the largest single 
program in the exterior layer, and provides significant 
potential to stop a U.S.-bound terrorist attack outside our 
borders.
    We have equipped 585 sites, including 46 large-container 
seaports, have provided 104 mobile radiation detection vans, 
and countless other handheld equipment. With this technology 
comes training, exercises, and sustainment support.
    We also focus on sustainability, and have already 
transitioned 85 percent of our installations to full support by 
the host countries. We have taken important steps in countering 
the nuclear and radiological smuggling threat by developing a 
range of technologies, as already mentioned by our friends in 
DNDO, and we work closely together to establish the standards 
for those technologies.
    NSDD's ability to adapt to an evolving threat, engage 
diverse international partnerships, and its ongoing 
collaboration with the interagency and with international 
organizations uniquely position this program to remain a leader 
in deploying and sustaining core elements of the Global Nuclear 
Detection Architecture, with the ultimate goal of preventing 
the use of a nuclear weapon or dirty bomb in the United States.
    Thank you for your attention, and I will be happy to 
respond to your questions.
    Mr. Hunter. Thank you, Ms. Harrington. I am now going to 
recognize Members for questioning.
    I guess the one thing that I am going to comment on is 
this. With terrorism and Islamic extremism where it is now, and 
the ability for nonstate actors to get ahold of nuclear 
weapons, or to get ahold of radiological weapons, or let's just 
say weapons of mass destruction of any kind, to have it 
nonattributable to any State, so there is no reciprocity, there 
is no mutually assured destruction, there is no deterrent for a 
nonstate actor to do something bad to the United States on a 
grand scale, because we would have no answer. If they came from 
Syria, we are not going to nuke Syria. If they came from a bad 
part of the world and they were nonstate actors, there is 
nothing we can do back to them as a deterrent. And these are 
people that will kill themselves and blow themselves up to kill 
20 Americans, let alone 20,000 Americans.
    So I guess my question is this. Do you see--and this is for 
everybody--do you see a weapon of mass destruction going off in 
the United States as inevitable in the next 25 years? Do we 
need to get right of the boom, as opposed to left of the boom? 
We talk about getting left, going out as far as we can for the 
materials and everything. But do you think that it is 
inevitable that you will have a device go off at some point in 
the United States by a nonstate actor, and there is nothing we 
can do about it? So that is my question.
    Dr. Brasure. I will begin to attempt to answer that 
question. I would say my answer focuses on we are doing 
everything we can to prevent that from happening. So in my 
world, my strategy, our teamwork is designed to prevent that by 
taking a holistic, risk-based, and multifaceted approach to 
securing the materials domestically and abroad, as well as 
setting up the detection and interdiction infrastructure to 
preclude that from actually occurring.
    I would also say that I cannot speak for the consequences, 
but what I can speak to are the technical capabilities in the 
national technical nuclear forensics arena, and I will assure 
you we are developing and we have a capability that we continue 
to improve to attribute the either interdicted materials or, 
with our interagency colleagues and some of the other programs, 
a post--you know, right-of-boom event to actually do the 
attribution to find out the source of the material.
    And so, I would say between those two elements, with 
respect to the prevention as well as the very real threat of an 
attribution through various means, including technical nuclear 
forensics, that again we strive to avoid that scenario from 
happening in the next 25 years and beyond.
    Ms. Harrington. If I could add briefly to that, Mr. 
Garamendi mentioned the biological threat in his opening 
remarks, and that certainly is a very serious one. But unlike 
biological and chemical and even conventional explosive 
threats, where the material to make a weapon is so ubiquitous 
that it is difficult to control, in our universe it is all 
about the material. Without the material, nothing happens.
    And you can have all the expertise and all the accompanying 
technology you want, but without the material, the damage 
doesn't happen. So our focus is, first and foremost, 
identifying where the material is--and that, as we discussed 
yesterday, is an issue between us and the intelligence 
community, but that is a very close collaboration; identify 
what the opportunities are to either eliminate the material, 
preferably, all together, or if not eliminate it, secure it.
    If we can't secure it, then make sure we have a detection 
ring around that material or around that country to give us the 
highest level of confidence that we will see that material move 
if it is out of regulatory control. It doesn't necessarily mean 
it always will be stopped, but as long as we know that 
something is in motion, then we can work with our partners, you 
know, in the United States in ports around the world, because 
of the partnerships we have developed, for that early warning 
system to kick in.
    But that is why it is so absolutely critical to push this 
protective ring that we are developing as far beyond our 
borders as humanly possible.
    Mr. Hunter. That is all I have got. If no one else has an 
answer to that one, I am going to recognize Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. So I just want to 
scope the threat again, just--based from your testimonies. So 
we know there is, you know, basically 30 countries that we are 
working with, or are available for nuclear material as source, 
100 with radiological is what you mentioned. We have got a very 
active black market, as you all mentioned. According to some 
open source reports, since December 31, 2014, there have been 
2,700 cases reported to the IAEA [International Atomic Energy 
Agency] voluntarily by 100 countries of illicit trafficking of 
nuclear and radiological material. So those are the ones that 
are voluntarily reported.
    Just, you know, one example, again, from an article in 
Moldova, in 2011 an informant was able to buy a highly enriched 
uranium in a green sack out of a Lexus parked near a circus in 
Moldova's capital. This is just an example of the challenge 
that we are dealing with.
    ISIS is now present in--with affiliates, organized 
affiliates--in at least 20 countries, with foreign fighters 
coming from 120 different countries from all over the world. So 
this is just scoping the challenge.
    You talk about partnering with countries in order to make 
sure we are preventing on the outer ring. So, in my mind, if--
who are the--I guess I would think Russia would be a big 
challenge. I think Moldova is a country of concern. So, in your 
expertise, who are the most challenging countries for either 
lack of capacity, lack of positive control, or lack of 
partnership that we are talking about here for source of 
material?
    And I don't know if--whoever wants to answer it, Ms. 
Harrington or Dr. Brasure.
    Ms. Harrington. Well, let me try to answer that in an 
unclassified way.
    One of the big challenges that we confront is, again, the 
shifting nature of the challenge. So in the past, we have been 
extremely focused, for example, on the very large stockpile of 
defense-related material in Russia. And we invested over 20 
years of cooperative activity. We feel that, as a result of 
that cooperative activity, the standards and the practices were 
improved significantly.
    We don't have insight into how those are being sustained 
any longer, and that causes us concern. But in response to that 
we have significantly accelerated--and I would say done so with 
a number of other partners, our European colleagues, Japan, 
Australia--we have an organization called the Global 
Partnership, where we bring funds and pool funds in order to 
improve these capabilities, for example, in Moldova, in 
Georgia, Ukraine, et cetera. So those activities are underway, 
and----
    Ms. McSally. So if I hear you, I mean, Russia is a concern 
now due to lack of cooperation, mostly, lack of insight into 
what is really going on, whether there is positive control or 
not. Is that fair?
    Ms. Harrington. That is a fair statement.
    Ms. McSally. OK. And other countries of concern in the 
unclassified realm--I mean Moldova--I mean, just looking at an 
article why Moldova might be the most dangerous place on earth, 
because of this issue. That is a concern to me. I mean can you 
just share some other perspectives, whether you can in the 
unclassified, of the countries of concern?
    Ms. Harrington. Well, I would say, in general, we have 
excellent cooperation, for example, with countries like 
Moldova, like Georgia, like Ukraine, those perimeter countries, 
because they don't want this----
    Ms. McSally. Right.
    Ms. Harrington [continuing]. Material passing through them, 
either.
    Ms. McSally. So that is a good cooperation, but maybe lack 
of total positive control. But at least they are cooperating 
with us, right?
    Ms. Harrington. Absolutely.
    Ms. McSally. OK.
    Ms. Harrington. Absolutely.
    Ms. McSally. Great. Mr. Owen, could we clarify? In your 
testimony you talked about 100 percent of containers, 100 
percent of vehicles are scanned when they are coming in to the 
country. But you are talking about the radiological scanning. 
But the physical, the x-ray scanning, is more like 3 or 4 
percent, is what I understand. And concerns about shielding or 
false positives, and what are we doing to maybe close the gap 
between what is actually being physically scanned versus, you 
know, what is being radiologically scanned, I just want to 
clarify it.
    Mr. Owen. Right, and that is correct, 100 percent of the 
cargo does pass through a radiation portal monitor at whichever 
border crossing it is coming through. So we do have 100 percent 
coverage for the radiation scanning. A much smaller subset of 
those containers that we determine to be higher risk are then 
sent for an x ray, if you will, a large-scale--different types 
of intrusive systems to see what is inside the containers.
    Those decisions are based on the targeting information that 
we receive, and our National Targeting Center has a very strong 
protocol, if you will, where we take not only the manifest 
information that the shipper provides, the importer information 
that the importing company will provide, we marry that up with 
our law enforcement databases, our trade databases, and most 
importantly, the information that we have from our intelligence 
community, as well as our international partners. All of those 
factors will determine that smaller subset, which is about 3.7 
percent right now of those containers that we look at for 
highest risk.
    Now, overseas we look at--of that 3.7 percent, about 1 
percent of that is actually inspected overseas as part of our 
Container Security Initiative.
    Ms. McSally. Of the 3 percent, 1 percent----
    Mr. Owen. Of the 3 percent, so it is about 1.1 percent 
overseas before it heads our way, and about another 2.6 upon 
arrival, so about 3.7 in total.
    Ms. McSally. OK, great. My time has expired. Thanks, Mr. 
Chairman.
    Mr. Hunter. I thank the gentlelady. The ranking member from 
California is recognized.
    Mr. Garamendi. I want to thank the witnesses for all of 
their testimony. There are so many pieces to this puzzle. The 
outer ring, Ms. Harrington, and the work that you have done 
there--my colleague, Congresswoman McSally, went into the 
Russia issue in some detail. Just one additional question on 
that.
    What efforts, if any, are being made to reengage with 
Russia on this issue?
    Ms. Harrington. Thank you for that question. We have never 
completely disengaged from Russia, particularly in the 
nonproliferation, disarmament, threat reduction sphere. We have 
kept some of that interaction alive, mostly through technical 
exchanges, best practices exchanges, because if the geopolitics 
ever permit, we, of course, would want to be working with 
Russia again, not only in Russia but perhaps teaming with 
Russia to work in other challenging places of the world. We are 
the two big players in the nuclear world.
    Mr. Garamendi. Well, having said that, it appears as though 
the engagement is at a very low level. That is, not terribly 
active. Is that the case?
    Ms. Harrington. It is at a marginal level right now, yes.
    Mr. Garamendi. What steps are being made to--are being 
undertaken to enhance the engagement?
    Ms. Harrington. In----
    Mr. Garamendi. Like, when is your next trip to Russia?
    [Laughter.]
    Ms. Harrington. I have not been to Russia in a while. But 
we have staff on the ground in Russia, literally, every week. 
So it is not that we are not present. We----
    Mr. Garamendi. This issue of engagement with Russia goes 
way beyond this particular set of concerns. And it seems to me 
that it is in the interest of Russia and the United States to 
enhance our engagement at every level: parliamentarian, 
military, nuclear, and the rest. And so I would encourage you 
to get on the airplane.
    Next question, Mr. Owens. And maybe this goes beyond you to 
Dr. Brasure also, and that has to do with the secure freight 
initiative, which was at one point in six ports, and now 
appears to be only one port. Could you describe that situation, 
and why it has gone from six to one? And should it be more than 
just the port in Pakistan?
    Mr. Owen. Yes, absolutely. Back in 2006, 2007, we began to 
explore the idea of 100 percent scanning, where you would have 
the radiation screening as well as the x-ray screening before 
the container was put on the ship. We piloted this in six 
locations. We were in Qasim, Pakistan; we were in a terminal in 
South Korea; a terminal in Hong Kong; Port of Cortes, Honduras; 
Salalah, Oman; and in Southampton in the U.K.
    Lots of different challenges that came up from the 
diplomatic, to having our personnel overseas. There were 
environmental issues, there was the biggest, which was the 
throughput of the cargo and the impact at having 100 percent x 
raying would take place.
    The way these two systems work, the passive scanning of 
radiation is very--quite simple. The container passes through. 
If there is any radiation emitting, the technology will detect 
that. The challenge becomes with the x raying of the cargo, 
because that is a very manual process. Using the different 
technologies, an operator has to do different things to try to 
see if there is a threat. And that will slow down the process 
of the cargo flowing through the ports.
    When you have gate traffic--and some of these ports we 
piloted in it was all gate traffic, so the cargo all arrived at 
an entry gate in--you can set up a suite of technology that 
will allow you to perform 100 percent scanning, realizing there 
will be some impact.
    However, in most of your largest container ports around the 
world, it is transshipment ports. You have ship-to-ship, barge-
to-ship, rail-to-ship, which presents a whole other challenge 
in terms of the flow of the cargo. So, after 4 years of testing 
this, we documented all of the different challenges, again, 
along the diplomatic, the operational, the impact, the 
limitations to the technology, and we decided that we would 
continue in the places that offer the greatest strategic 
benefit, that being Qasim, Pakistan--68,000 containers last 
year that came out of Qasim. Every one of those was scanned for 
radiation and an x ray was performed, the data being sent to 
our National Targeting Center here, in Virginia, where a U.S. 
CBP officer makes that go/no-go decision if that cargo is 
loaded on the vessel.
    In the last year we have also expanded that same operation 
to Port of Aqaba in Jordan for obvious reasons. So that is the 
approach that we are taking. Where can 100 percent scanning add 
the greatest value to enhance our overall security overseas?
    Mr. Garamendi. And that takes us to yesterday's hearing on 
the classified----
    Mr. Owen. Yes, sir.
    Mr. Garamendi [continuing]. Piece of it. Good.
    A question to all of you, and that is resources, as in 
money. And I would like all of you to address this issue of 
funding, which is our problem. Do you have adequate funding to 
carry out the tasks that you have been assigned? Let's start 
with the Coast Guard.
    Admiral Fagan. Thank you. As you know, the Coast Guard 
participates in this mission from a layered approach. And as 
you go from the overseas international arena into the offshore, 
the approach is in the transit zone, and you know we are 
engaged in a major recapitalization of some of our aging cutter 
fleet designed to deploy exactly into those approaches in the--
thinking specifically of the offshore patrol----
    Mr. Garamendi. I don't need to hear all the task of the 
Coast Guard. The question was do you have adequate funding for 
this specific task that we are discussing today?
    Admiral Fagan. We are doing everything that we can within 
the mission zone with the resources that we have today.
    Mr. Garamendi. Well, you danced around the answer. The 
answer is not appreciated. Either you have adequate funding or 
you do not. If you do not, we need to know. I mean that is our 
job. It is our job to provide the funding necessary to protect 
America, and your job is to carry it out. And right now your 
job is to answer the question. Do you have adequate funding to 
carry out this specific task?
    Admiral Fagan. We have adequate funding to carry out the 
task----
    Mr. Garamendi. Very good.
    Admiral Fagan [continuing]. As Coast Guard.
    Dr. Brasure. Yes, sir. We also apply the resources we have. 
And in DNDO we apply them using a risk-based strategy across 
all areas. And we support the President's budget submission.
    Mr. Owen. And we have a workload staffing model that 
identifies the resources that we need, and the resource 
staffing model shows that we are 2,107 officers below what we 
need to carry out the resources. About 500 of those are 
directed towards seaports. So, on the personnel side, we do 
have a model that has been validated by independent groups that 
show we need additional resources, about 500, for the seaports.
    Also concerned about the aging technology that we have in 
our ports of entry, as well.
    Mr. Garamendi. Thank you.
    Ms. Harrington. We have adequate funding for the mission 
requirements, but I would point out that affecting the budget 
of one piece of this layered defense affects how everybody is 
able to implement, because this is really that integrated. So, 
if the Coast Guard or Customs and Border Protection, or 
particularly DNDO is affected in the budget world, then that 
has an impact on our ability to execute.
    Also, I don't want to get into this--it is as painful for 
Congress as it is for us--but CRs [continuing resolutions] are 
not a good way to plan and execute programs.
    Mr. Garamendi. Thank you. I yield.
    Ms. McSally [presiding]. Thank you. The Chair now 
recognizes Mr. Gibbs from Ohio.
    Mr. Gibbs. Thank you, Chairwoman. I represent the Great 
Lakes region, and I realize ports are their major economic 
drivers, and understand it is important to make sure of port 
security.
    I want to talk a little bit about container security. In 
2010 there was a GAO [U.S. Government Accountability Office] 
report that said that some countries are reluctant to comply 
with the international port security code due to concerns over 
sovereignty. And can you kind of give us--any one of you, I 
guess--this international port security is now--is it uniformly 
followed by our U.S. trading partners, or is there still 
concerns with sovereignty?
    Admiral Fagan. The--as I mentioned in my opening comments, 
the--one of the programs the Coast Guard operates is the 
International Port Security Liaison Officer Program, where we 
have visited 150 countries and 1,200 ports, and have generally 
found quite good compliance as we have made those visits. There 
have been a small number of ports that have not adequately met 
that international standard, and we have protocols in for 
identifying those countries and increasing the scrutiny, the 
inspection, and the screening regime for ships that would have 
called from those particular ports.
    But generally, compliance is generally good with a few 
small exceptions.
    Mr. Gibbs. What kind of numbers on an annual basis that, 
you know--that--ships been refused entry or--you know, what is 
kind of--how often has this occurred, it is a problem that they 
are not in compliance?
    And then also, you know, what--is there a particular 
country or area that has been more of a problem for clients?
    Admiral Fagan. I will get you the specifics on which 
countries and what numbers of ship arrivals we experienced from 
those countries. This is part of the advance notice of arrival 
screening process. The last five ports of call we look at crew, 
you know, passengers, containers, part of the National 
Targeting Center--the Customs and Border Protection mentioned 
we have a Coast Guard contingent over there. It becomes part of 
a seamless screening process, looking at the risk profile of a 
vessel before it comes to the United States, and decisions are 
made as to whether that vessel needs to be boarded offshore, 
allowed in port. Again, looking at the totality of the risk 
profile.
    I can get you specifics on what number of ship calls we 
have had, particularly from the countries that have had a port 
that is problematic from a compliance----
    [The information follows:]

        If a country is found to have poor implementation of the ISPS 
        code's security recommendations, it may be considered by the 
        Coast Guard as having inadequate antiterrorism measures and as 
        authorized by law, the Coast Guard may impose conditions of 
        entry (COE) on vessels arriving from that country or a 
        particular port or facility. Such vessels are subject to a 
        range of port State control actions, beginning with a COE 
        verification of their security measures to mitigate risks, up 
        to and including denial of entry.

        In 2015, 8,925 individual foreign vessels from 81 different 
        flag administrations made 73,752 port calls to the United 
        States. The Coast Guard conducted 1,712 COE verifications. In 
        2015, the bulk of the COE verifications were aboard vessels 
        that visited Venezuela, Nigeria, Cote d'Ivoire, and Equatorial 
        Guinea in their last five ports of call before arriving in the 
        United States. Of the 1,712 COE verifications, 24 vessels were 
        issued ``denial of entry'' operational controls. None of the 24 
        were issued due to the vessels' noncompliance with the COEs, or 
        due to noncompliance with the ISPS code.

        With regards to ISPS compliance (not COE), there were 15 ``IMO-
        related'' denial of entry operational controls since the ISPS 
        code was adopted. Only one was recorded as being issued to a 
        vessel for failure to implement the ISPS code. That occurred in 
        2011.

    Mr. Gibbs. But you feel pretty comfortable that the program 
is working, that compliance with our trading partners is 
improving? Or is there something we can do more to enhance 
that?
    Admiral Fagan. No, the program is quite mature and is 
working quite well, and I am very comfortable with the 
interagency coordination and communication that occurs as that 
vessel approaches the United States, and that there will not be 
a--sort of no surprise when a ship actually arrives then in the 
U.S. waters with regard to what the potential risk profile--be 
it from a last port of call that may have had a compliance 
issue.
    Mr. Gibbs. Thank you. I yield back, Chairman.
    Ms. McSally. The gentleman yields back. The Chair now 
recognizes Ms. Hahn from California.
    Ms. Hahn. Thank you. I appreciate us holding this hearing 
today. Port security has really been my top issue since I have 
come to Congress. I represent the Port of Los Angeles and the 
complex of Long Beach in Los Angeles is within my backyard. So, 
as America's port, you know, representing almost--you know, it 
depends. Using around 42 percent of all the trade coming into 
this country comes through our ports; Todd and I have worked 
together on a number of issues.
    But I will tell you, since 9/11 my concern has really 
increased in terms of something happening at one of our ports. 
Because of the nature of 9/11, certainly Congress has been more 
focused on aviation security because that was the nature of the 
attacks that day. And I think we have done a pretty amazing job 
at really changing the way we behave, and changing the way 
people fly.
    But I really believe that we have not done the same for the 
ports in this country. I take it very personal and very--I am 
very responsible about keeping the people of my district safe, 
but also understanding what an attack at one of our ports would 
mean to our national and, dare I say, global economy.
    I was happy 2012 that my legislation called the GAPS Act 
[Gauging American Port Security Act], which would have required 
DHS to identify remaining gaps in our Nation's port security, 
passed the House. And in last year's appropriations bill, my 
amendment requiring an assessment of cybersecurity risks at our 
Nation's most at-risk ports was included and passed. And I am 
looking forward to seeing the findings that are going to come 
out in August of that report.
    And I am hoping, after today's hearing, Congress will also 
seriously take into consideration my other bill called the SCAN 
Act [Scan Containers Absolutely Now Act], which would create a 
pilot program to test the implementation of 100 percent 
scanning technology at two selected ports in this country.
    And Todd, I am going to direct my questions to you. It is a 
little disturbing when you keep saying 100 percent scanning, 
because that is really not the intent of the law that Congress 
passed in 2006 called the SAFE Port Act [Security and 
Accountability for Every Port Act]. That was 100 percent 
scanning using radiation and x ray. So for you to keep saying 
100 percent scanning of all containers coming in our ports is 
really not accurate, and I wish you wouldn't say that, because 
it makes people believe that we are following what Congress 
intended.
    And it was unfortunate that Secretary Jeh Johnson has said 
100 percent screening and scanning is not the best use of 
taxpayer resources, and they are delaying yet again Congress' 
will by another 3 years.
    You know, the CBO [Congressional Budget Office] estimated 
that meeting that mandate would cost about $22 billion to $32 
billion over the course of 10 years, but we know--and that 
seems like a lot of money, but we know in 2002, when the west 
coast ports locked out the workers, we finally quantified that 
it was a $1 billion- to $2 billion-per-day hit to our economy. 
That lockout lasted 10 days, so there is your $20 billion right 
there. And if something were to happen at one of our ports, I 
think the economic risk, not to mention the loss of lives, 
would be enormous to this country.
    Let's say--you know, I really want to know what you think 
about--because people say--you are included--most everybody 
here said it would slow down commerce if we did 100 percent 
scanning the way Congress intended. But I have never seen that 
to be proven, one way or another. And my bill would say, fine, 
let's test it at two ports. Let's have 100 percent scanning, 
radiation and x ray. Let's see. Because I believe there is 
technology that exists today that will accomplish both, that 
will keep us safe but will not slow commerce down.
    If Congress decided to pass my bill, and we had a pilot 
program at two ports, what do you think--is there--do you think 
there is equipment that you would recommend that we could 
purchase or could use in testing this thing? I want somebody to 
prove me wrong, because I don't think I am wrong on this one.
    Mr. Owen. Well, again, with the--the way the law defined 
100 percent scanning, it was the radiation and the x ray.
    Ms. Hahn. Right.
    Mr. Owen. The radiation piece is doable, we are already 
doing that.
    Ms. Hahn. Right.
    Mr. Owen. We are doing that all around the world. It is the 
x-ray piece.
    Ms. Hahn. Right.
    Mr. Owen. I have not seen a piece of x-ray technology that 
has yet to offer automatic anomaly detection. Every piece that 
I have seen still requires intervention from an operator to 
identify where the anomalies are, and that takes time.
    As you know, Los Angeles, Long Beach, 13,000 containers a 
day. Under your act we would scan and x ray 13,000 containers a 
day. U.S. Customs and Border Protection currently has 10 pieces 
of nonintrusive inspection equipment to do that. We cannot do 
13,000 containers a day in Los Angeles with the equipment that 
we have.
    So I think it is still an issue of the technology----
    Ms. Hahn. Do you think there is technology out there that 
could solve this problem that maybe you have not tried yet?
    Mr. Owen. I have not yet seen technology that can solve the 
problem. I know the vendors are working towards technology that 
can solve the problem, but I have not yet seen it deployed or 
in an operational setting, where it would not add to the 
further congestion of the ports. So I think that is something 
we need to keep in mind, too.
    You mentioned the $22 billion to $32 billion that the CBO 
report last month mentions. That does not include the 
reciprocal costs if foreign governments require the same 
actions in our ports. So if we had to scan every container 
leaving the U.S. to go foreign--because that is the requirement 
we have placed on them--I would argue there would be a 
detrimental impact on the throughput of the commerce through 
our ports, as well.
    Ms. Hahn. You know, and I know my time is up, and--but, you 
know, I will tell you I just don't buy that. And I am sorry, 
and I will say every single day that I think our ports are some 
of our most vulnerable entryways into this country. And until 
we act on what Congress decided, 100 percent scanning, I don't 
think we are going to have the safety and security we need. And 
I think slowing down commerce is certainly not my first option, 
but the alternative, what would happen to slow down commerce in 
this country, nationally and globally, if one of our major 
ports were to have an incident that shut them down, is 
unthinkable to me.
    And I hope we move forward with 100 percent scanning some 
day. I think that that should be our goal. I think we should 
move toward it. And I think there is technology out there. And 
the more, by the way--and this is my last statement--but the 
more, by the way, we begin to agree to that goal, we are 
opening up a great opportunity for entrepreneurs and 
businesspeople to begin developing technology. But as long as 
we are shutting the door on that market, I don't think we are 
going to see the kind of technology that I know we are capable 
of creating to do both, keep us safe and move commerce.
    Thank you very much for the extra time. You know my passion 
about this.
    Mr. Hunter [presiding]. I thank the gentlelady. And our 
next panel is going to be a bunch of super-smart people on 
technology. So I hope you will stick around for that.
    With that, Mr. Curbelo is recognized.
    Mr. Curbelo. Mr. Chairman, thank you for this opportunity, 
and I thank all the witnesses for coming this morning.
    Admiral, a question for you. What is the Coast Guard doing 
to monitor potential risk from small-vessel attacks in U.S. 
ports, and distinguish between legitimate vessel operators and 
those engaged in illicit activities? This is of particular 
interest to us in south Florida. We have many small vessels in 
our waters. Please, go ahead.
    Admiral Fagan. Thank you. As you know, the small-vessel 
threat is exceedingly complex, and there is no one single 
agency that can, you know, counter the threat from small 
vessels and, you know, constant vigilance is a--is an important 
element in the small-vessel threat realm.
    Within the ports--and I can speak specifically from my time 
as the captain of the port in New York--there are a number of, 
you know, coordinating and communicating mechanisms through the 
Area Maritime Security Committee and others that help bring the 
other entities together to look at and understand what the risk 
and the threat streams may be.
    I am confident that within the law enforcement and the 
intelligence information flow into those coordinating 
communicating mechanisms, that we have got a whole-of-
government, including Federal, State, and local partner, look 
at this threat stream, as well as others that may confront a 
port community in the United States.
    Mr. Curbelo. So it seems a daunting task to track small-
vessel activity. Can you get into the degree of coordination 
you have with local authorities to help extend the Coast 
Guard's reach and really monitor this as much as possible?
    Admiral Fagan. Yes. So the Coast Guard coordination--you 
know, we have talked about at the international level, I will 
talk very specifically now at the port level. And again, to my 
personal experience in the Port of New York, there were over 
200 agencies that we were regularly coordinating and 
communicating with. There are daily phone calls with some of 
the key law enforcement partners and agencies to get at and 
share information exactly on threat streams, small vessels or 
otherwise.
    That level of information and collaboration and 
coordination has never been better. There are other--you know, 
whether AIS [automatic identification system] and other 
technical means that then also allow insights into the number 
of vessels that are out there, and where that threat stream may 
be. Intelligence and law enforcement information really become 
powerful enablers as we look to counter threats from small 
vessels.
    Mr. Curbelo. Also your testimony states the Coast Guard 
conducts over 400 routine inspections in general law 
enforcement boardings every day to ensure vessels comply with 
international maritime law and safety standards, applicable 
U.S. law and regulations, and any control procedures required 
to access the Nation's ports.
    Well, what are the infractions that are typical of one of 
these boardings or inspections?
    Admiral Fagan. So if it is a large commercial vessel, we 
have talked about the screening, the advance notice screening. 
The infraction could be denial of entry into the United States 
of the vessel. The captain of the port has a broad range of 
authorities and responsibilities, and would be well within that 
individual's authority to prevent a vessel from entering, to 
hold a vessel in port requiring certain safety and security and 
environmental compliance regulations be met before that vessel 
moves, all the way down to--and in the small recreational 
vessel community it could be a violation for failure to carry 
lifejackets. It runs the full breadth of safety, security, 
environmental, and the sort of follow-on actions are 
commensurate with what----
    Mr. Curbelo. Do you have a rough estimate of how many of 
these approximately 400 daily boardings are small vessels?
    Admiral Fagan. I do not have it, but I can get that for 
you----
    Mr. Curbelo. Sure.
    Admiral Fagan [continuing]. Exactly what, you know, the 
number of large-vessel boardings, the small-vessel--what we 
call a 4100 boarding, how many of those are occurring each day. 
And I will provide you a more detailed breakdown.
    [The information follows:]

        The Coast Guard averaged over 400 boardings or inspections per 
        day in FY15. The below table includes confirmed boardings of 
        small (less than 300 gross tons) and/or recreational vessels, 
        large (greater than 300 gross tons) vessels, and Safety/
        Security/Compliance Inspections of U.S.-flagged or foreign-
        flagged vessels.


----------------------------------------------------------------------------------------------------------------
                                           Large Vsl         Small Vsl       U.S.-Flagged Vsl   Foreign-Flagged
      FY2015              Total            Boardings         Boardings         Inspections      Vsl Inspections
----------------------------------------------------------------------------------------------------------------
Annual              157,169            15,512            52,495             56,378             33,079
----------------------------------------------------------------------------------------------------------------
Daily Avg.          434                42                144                156                92
----------------------------------------------------------------------------------------------------------------


    Mr. Curbelo. Thank you, Admiral.
    Mr. Chairman, I yield back.
    Mr. Hunter. I thank the gentleman. Mrs. Torres is 
recognized.
    Mrs. Torres. Thank you, Mr. Chairman. I want to associate 
myself with the comments given by my colleague that represents 
the Port of Los Angeles and Long Beach. I represent the 35th 
Congressional District. Everything that comes through those two 
ports makes its way to my district. We have lots of warehouses. 
Logistics is the business of the district.
    So, yes, I am very, very concerned about containers coming 
through, whether it is coming through the Alameda corridor or 
it is coming through by truck on the I-10 or the Route 60 
freeway, which are regularly overcrowded with commuters trying 
to make their way to and from their jobs in Los Angeles to the 
Inland Empire.
    It is alarming to me that we have continued to ask for 
extensions. In this last request to extend this 100-percent 
check, is this your last request? I mean what assurances do we 
have that you actually have the technical expertise to deliver 
on your promise to Congress that you could meet the requirement 
given?
    Dr. Brasure. So what we are doing in response to the 
Secretary's new look at the legislation is to--we have put out 
an RFI, request for information, to look broadly at both 
material and nonmaterial solutions to the 100-percent overseas 
scanning. And we received--we targeted not just technology 
solutions, but broadly look into the private sector, for 
instance, to gain their insights, port operators, trade unions, 
just broadly and innovatively across the overall enterprise.
    We received approximately 30 responses back last month, and 
my team at DNDO is right now evaluating those responses. And 
indeed, they came from not only technology companies, but all 
the entities I just mentioned, they responded.
    So, once we evaluate those, we expect to hold meetings in 
sessions with the successful respondents in the August-to-
September timeframe, and we would be happy to come back and 
brief you on----
    Mrs. Torres. So these 30 new responses, they are different 
from what previously you have received? And how are they 
different?
    Dr. Brasure. So they are different because we looked, 
again, more broadly beyond technology companies. And I would 
like to point out that, with respect to technology companies, 
we are currently piloting and evaluating technologies that 
could be applied to 100 percent scanning, and we are in various 
stages of evaluation in pilots for such technology solutions.
    But again, the RFI is addressing more broadly inputs from, 
again, the private sector and looking to them for their 
solutions, and they are sharing in this 100-percent scanning 
activity.
    Mrs. Torres. Rear Admiral, in your testimony you state that 
the Coast Guard conducts foreign port assessments and have 
visited more than 1,200 port facilities. Does the Coast Guard 
share those results of the security assessments with U.S. 
ports, such as the Port of Los Angeles and the Port of Long 
Beach?
    Admiral Fagan. So the outcome of those port visits and port 
assessments factor into our risk-based screening, as we 
determine what the risk portfolio around a large commercial--
presenting to the United States from a passenger and cargo and 
crew standpoint, and that is then factored in to, you know, the 
decisions on whether you are going to do boarding offshore at 
the anchorage, or into the port.
    In cases where there is a particular concern, say, with a 
crewmember that you are concerned may get off the ship, there 
are then, you know, additional security measures that are 
coordinated, you know, through the Coast Guard and the captain 
of the port authorities. I am not sure how much is publicly 
shared in the unclassified realm, but I do know it is very 
fundamental to our valuation of risk associated with a ship 
because of having called at one of those----
    Mrs. Torres. I am more concerned----
    Admiral Fagan [continuing]. A port that might not----
    Mrs. Torres [continuing]. Ma'am, about sharing lessons 
learned, you know, what you are learning about potential risks, 
not necessarily attached to, you know, personnel, but logistics 
types of risks, where we could do a better job sharing 
information with the port authorities, as well as--I want to 
make sure that you are including--and this is for all of you--
don't forget that, you know, the shipments that you are not 
inspecting eventually make their way to districts like myself, 
putting millions and millions of people at risk.
    And I think, you know, we really need to look at and 
consider what is the life--the cost of the lives of these 
millions of people that are being put at risk when we fall down 
and continue to ask for extensions? I understand, you know, 
that there are technical challenges, but at some point we need 
you to deliver on what Congress has asked you to do.
    And with that I yield back.
    Mr. Hunter. I thank the gentlelady. And I would like to 
point out, too, to Ms. Hahn, we have the RFI that the 
Department of Homeland Security has put out to--an open RFI 
that said, ``Hey, come one, come all, bring your technology, 
bring your best stuff, we want to see it, we want to do this,'' 
right? It is right here. If anybody would like to see this, 
too, we have it on hand.
    Ladies and gentlemen, thank you very much for your time, 
for your service to our Nation, and for doing what you do. 
Because without you we wouldn't have--we would not be as safe 
as we are now. And I just hope that you are always seeing the 
new challenges coming up and--especially when, once again, when 
people will kill themselves to kill 20 Americans, they will 
happily sacrifice their lives to Allah to kill thousands of 
Americans. I think that that raises the stakes. Like Ms. 
McSally said, when you put in--when you combine terrorists with 
weapons of mass destruction, it is a whole new ball game. And 
that is where we are right now.
    So thank you very much, and we can have our next panel of 
witnesses come up. Thank you. And I will go ahead and introduce 
them now.
    On our second panel of witnesses, Ms. Jennifer Grover is 
the Director of Homeland Security and Justice for the U.S. GAO. 
She will be the first to present testimony. Then we have Dr. 
Gregory Canavan, a senior fellow of the Los Alamos National 
Laboratories; Mr. David Espie, the director of security at the 
Port of Baltimore; and the final witness, Mr. James Weakley, 
president of the Lake Carriers' Association.
    And I would like to preface this next panel. I would hope 
that everybody that was on the next panel was present here 
during the first panel. And if you could, let's talk about what 
we just heard. We had a classified hearing yesterday, we just 
had this hearing now, and you just heard how our Government 
offices are trying to treat any kind of weapons of mass 
destruction, from the far-flung areas of Moldova and Georgia 
and Ukraine all the way to our shores, checking small boats and 
also checking with other countries and having them help us by 
checking stuff as it leaves their nations.
    So, Ms. Grover, if you would start, and I don't necessarily 
have any questions specifically for this panel, but I would 
like you to comment on what you just heard. Because, I mean, 
that is the American security system you just saw for weapons 
of mass destruction. They were just here, they just talked, so 
I am curious what your take is. Thank you.

 TESTIMONY OF JENNIFER A. GROVER, DIRECTOR, HOMELAND SECURITY 
AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; GREGORY H. 
      CANAVAN, PH.D., SENIOR FELLOW, LOS ALAMOS NATIONAL 
 LABORATORIES; DAVID A. ESPIE, DIRECTOR OF SECURITY, MARYLAND 
   PORT ADMINISTRATION, PORT OF BALTIMORE, ON BEHALF OF THE 
   AMERICAN ASSOCIATION OF PORT AUTHORITIES; AND JAMES H.I. 
         WEAKLEY, PRESIDENT, LAKE CARRIERS' ASSOCIATION

    Ms. Grover. Yes, sir. Good morning, Chairman Hunter, 
Chairwoman McSally, Ranking Member Garamendi. I will focus most 
of my comments today on the perspectives that you heard from 
CBP.
    With about 12 million cargo shipments arriving each year, 
the U.S. maritime ports do indeed remain vulnerable to 
smuggling. CBP has determined that it does not have the 
resources to examine every shipment. So, instead, what they are 
doing is counteracting the smuggling threat by identifying and 
examining the high-risk shipments. Yet, ensuring that this 
approach functions properly is indeed still a work in progress.
    So, I will focus on two points. First of all, how does--how 
well does CBP do in identifying those high-risk shipments for 
examination? And then, secondly, how well do they do in 
actually examining the high-risk shipments that have been 
identified?
    So, the automated targeted system is the heart of CBP's 
ability to identify those high-risk shipments that could 
contain weapons of mass destruction, illegal drugs, counterfeit 
goods, or other prohibited items. The system works by 
designating every shipment as low, medium, or high risk, based 
on a broad range of information that is submitted by importers, 
vessel carriers, intelligence, and other Government and public 
sources. It is used to identify the high-risk cargo before it 
is loaded onto vessels at the foreign ports, as well as to 
identify high-risk shipments approaching the U.S. ports. Thus, 
it is essential that the system be accurate.
    In 2012, GAO found that CBP updated this system without 
evaluating the impact of the update on the accuracy of the 
targeting. At the time, CBP's data on its targeting accuracy 
suggested considerable room for improvement. Specifically, of 
all the shipments found during examination to include 
contraband, such as guns or drug shipments, only 6 percent had 
been identified by the targeting system as high risk. Now, this 
is data from 2011 and 2012, because this was from a 2012 
report.
    In other words, the remaining 94 percent of shipments that 
were actually found to have contraband during examination had 
been identified as low or medium risk by the system. Also, at 
the time, CBP did not have a target accuracy rate, which was 
limiting their ability to monitor progress in the area.
    Now, last year, CBP responded to GAO's recommendations by 
setting a target accuracy rate, and by requiring that future 
system updates should evaluate the impact that it would have on 
accuracy, as well as on workload. And therefore, they are in a 
better position to monitor the accuracy, going forward. And I 
can tell you that the targeting accuracy rate now is 
significantly improved over where it was in 2012, and the 
component continues to refine the targeting and the method for 
analysis.
    So now let me just take a minute or two and talk about how 
well CBP does at ensuring that those high-risk shipments are 
actually examined after they have been identified. So CBP's 
policy is that every high-risk shipment must be examined, 
unless the exam has been waived by a CBP officer. In a 2015 
report we found that, of the roughly 120,000 high-risk maritime 
shipments that are processed each year--that were processed 
each year, 2009 through 2013, most, about 90 percent, were 
actually examined.
    But CBP did not have good data on the disposition of the 
other 10 percent that should have been waived. Our review of 
the data showed that some of those shipments weren't actually 
high risk, so they would not have needed to be examined. Some 
were examined and recorded improperly, but there were some that 
were not waived, but also not examined, in violation of CBP 
policy. And among those that had been waived, we found that the 
CBP officers varied in their understanding of the waiver 
categories and criteria, which could lead some shipments to be 
examined unnecessarily in a waste of resources, and other 
shipments waived that should have been examined.
    So, we made several recommendations which CBP has 
addressed. They have new guidance and policy that should 
enhance consistency across CBP officers, thus leading to 
greater assurances that all of the high-risk cargo will either 
be examined or waived, as appropriate.
    So just one or two other points on some of the issues that 
came up today, and that is to acknowledge that maritime ports 
are indeed vulnerable to smuggling by means other than cargo 
containers.
    Small-vessel securities was one of the topics that was 
discussed by the previous panel; that does indeed remain a 
challenge because small vessels are unregulated. They are just 
hard to track.
    Another example of a different type of vulnerability 
besides the cargo containers is that ports remain vulnerable to 
illegitimate access through weaknesses in the TWIC 
[Transportation Worker Identification Credential] access card 
program, which is the way that--the system that is used to 
control access to the ports.
    So DHS does have multiple initiatives in place to address 
both of those issues. They are aware of the concerns, and they 
are making progress, although more work needs to be done.
    So, to conclude, DHS does indeed have multiple systems in 
place intended to ensure port security, to identify and examine 
cargo shipments at high risk for smuggling, but in this area of 
Government operations, as in many others, it is essential that 
the Department implement the programs as intended and, very 
importantly, monitor outcomes to maximize security.
    Thank you for the opportunity, and I look forward to any 
questions you may have.
    Mr. Hunter. Thanks, Ms. Grover.
    Dr. Canavan, good to see you again. You are recognized.
    Dr. Canavan. It is nice to be back. I am here to talk about 
the detection of clandestine nuclear weapons.
    The last time I was here I made the argument, which I think 
has held up pretty well, that fast neutrons could be used to 
detect bare nuclear weapons in things of the size of, say, a 
TEU [twenty-foot equivalent unit] or two TEU, for weapons that 
were in with a manifest of ordinary things, normally in one of 
those containers. This time I want to extend that to say I 
believe that the same approach can be used to detect nuclear 
weapons which are in TEUs, but instead of just the bare core 
itself, something with a basketball size of moderator or 
absorber around it to minimize its signatures to make it harder 
to detect.
    I am talking about nuclear weapons rather than the dirty 
bombs which have been primarily discussed up to this point. And 
I am emphasizing weapons, because nuclear weapon material--
uranium or plutonium--has essentially no useful and reliable 
signature that can be detected passively. Uranium and plutonium 
have a few gammas that are easily screened out by a thin layer 
of lead. So you really do need to do something to excite the 
system in order to get a signal out--in this case a fission, a 
unique and discernable signature that leads to high-confidence 
detection.
    I am sorry Ms. Hahn left, because it is also a very fast 
detection system. It has a very low false alarm ratio. 
Therefore, it would be suitable to inspection of everything 
that goes through a port, rather than just a fraction of it, 
because it is fast and doesn't have the false alarm problems 
for reasons that I will come back to in just a minute.
    It is largely the same story as the previous testimony. 
Fast neutrons scatter around inside the container. If they 
encounter nuclear material, they produce fission. The fission 
neutrons diffuse out as a distinct and pervasive signal that is 
easily detected.
    The reactions that produce the fission neutrons produce a 
big separation in energy between the source neutrons and the 
fission neutrons, which is the basis for high signal-to-noise 
ratio detection. Filtering between the two energies detects the 
signal.
    A couple of quick points. One is that the fast neutrons 
penetrate a large portion of material to produce this direct 
signal. Even when something is buried in an enormous amount of 
moderator, the high signal return from the moderator itself 
still reveals the composition and thickness of that moderator, 
which signals the object's intended purpose.
    A related point that I thought would have come up the last 
time, but didn't, is that when someone puts additional 
moderator around a weapon to hide its signature from the 
weapon, that increases its signature and criticality.
    As an example, if you take a solid-core device, the kind 
Pakistan has put into international commerce now, back off 
about 10 percent margin for safety, but then add another 15 
centimeters of moderator around it for signature reduction, you 
return it right back up to criticality. That won't hurt us, but 
might be a problem for the person who assembles it at the point 
of origin.
    A related point is that when you put fast neutrons into a 
nuclear assembly, it produces fewer fast neutrons than you put 
in. So you cannot generate a critical assembly, or a nuclear 
explosion, by nuclear interrogation itself of a subcritical 
device. So that is not an additional concern.
    A related point is that when you interrogate a nuclear 
assembly with a moderator around it, the neutrons bounce back 
and forth between the core and moderator and produce fission 
many times. The net result is that you get a signal that 
persists many--10, 100--times longer than the length of the 
exciting pulse. It is a distinct signal with high energy that 
persists for long times and propagates long distances from the 
device.
    A technical point is that the detection on the basis of 
energy depends on the ratio of the difference in energy between 
the fission and the source neutrons divided by their variance. 
I am sorry, this is statistics 101, I can see you are not 
appreciating this, sir. No more math, no more math.
    [Laughter.]
    Dr. Canavan. But the point is that fission produces a big 
energy separation, and for fundamental reasons, the variances 
of the fission neutrons become smaller in time as they go down 
in energy. Their signal-to-noise ratios get to be 100, 1,000, 
10,000. With very high signal-to-noise, you have very low false 
alarm ratios, which is what Ms. Hahn was alluding to.
    And so, it is everything that you would like to have. Plus, 
as it turns out, the way the statistics go together, the high 
signal-noise ratios that you generate are quite insensitive to 
the statistics of the noise, so the signals remain exceedingly 
high.
    To put this into context, x rays can tell you that there is 
mass, but can't tell you what it is. Passive sensors can't 
detect nuclear materials with low signals. There is nothing to 
detect. And thermal neutrons, which is what the DOD [Department 
of Defense] spent most of its money on after 9/11, produce 
complicated detection schemes with low statistics that are easy 
to counter measure.
    Overall, fast neutron interrogation offers an approach that 
would fit well with the sensors and mountings for these 
existing systems, and would produce what I think is an 
exceedingly high signal noise, low false alarm, high throughput 
system, based on fairly straightforward physics that is used in 
reactors and experiments every day, sensors that are used today 
for down-hole well-hole logging, and detectors that are used 
for reactors and experimental physics for measurements are made 
at fairly low and benign energies.
    Thank you very much, sir, and I am sorry about the math.
    Ms. McSally [presiding]. Thank you, Dr. Canavan. I am 
having flashbacks to my physics classes at the Air Force 
Academy. I won't sleep well tonight. But we got some good 
questions based on the technology that you discussed.
    And Mr. Espie, you are now recognized for 5 minutes.
    Mr. Espie. Thank you, Chairmen Hunter and McSally, and 
Ranking Member Garamendi, for convening this hearing today. I 
am testifying today through your invitation, and on behalf of 
the American Association of Port Authorities, where I am a 
member of the Security Committee. This is a vital topic, which 
could ultimately impact the safety and security of the United 
States if not addressed in a cohesive and expedited manner.
    In my role as director of security for the Port of 
Baltimore, the prevention of maritime nuclear smuggling into 
the United States is a top priority, and it requires a 
multifaceted approach. It requires the input of diplomatic 
resources, technical assets, human capital, and appropriate 
funding to facilitate subsequent preventative methodologies. 
All this requires a strong partnership with the Federal 
Government.
    As a retired FBI agent and former special agent with the 
National Security Agency, I also view our security from a 
national and international perspective that must empower ports 
to be more engaged in our national security apparatus. In my 
experience, it is vital that our Government have sound 
diplomatic relationships with countries that will cooperate 
with the United States in not only applying necessary security 
measures to secure their own nuclear materials, but will also 
assist in countering a neighboring country or one in the 
certain region that may possess such material and may have 
negative intentions against our country and others.
    Global diplomacy and policies impact local port security 
enforcement. Positive measures currently in play are the State 
Department's Counter Nuclear Smuggling Unit, the Department of 
Energy's partnership with nearly 50 countries providing 
radiation detection and nuclear forensics equipment, and the 
recent Nuclear Security Summit held here in Washington.
    I cannot emphasize enough the importance of technical 
aspects of our intelligence and Federal law enforcement 
agencies that must be continually deployed and refined.
    Existing capabilities and resources must be deployed and 
fully capable in order to maximize our country's opportunity to 
readily identify and neutralize potential threats. Development 
and tasking of domestic and international sources must remain a 
priority for intelligence agencies and services and our local 
State and Federal law enforcement agencies. In some cases I 
believe it would be beneficial for our port security directors 
in the United States to receive FBI briefings.
    The threat of maritime terrorist smuggling appears to be 
increasing, possibly in correlation with the flight of Syrian 
refugees to and from Europe. Recently, a stowaway on a roll-on, 
roll-off vessel destined for the Port of Baltimore was located 
by a ship's crew and taken into custody by CBP and HSI 
[Homeland Security Investigations]. The stowaway admitted that 
he boarded the vessel while it was docked at a German port. 
Approximately 1 week prior to this event, a shipping lines 
manager in Baltimore advised me that his lines had experienced 
several stowaway attempts by Syrian nationals in Germany, as 
well.
    Directors of port security in the United States are not 
routinely granted a security clearance with the Federal 
Government, and hence are not provided classified briefings 
regarding threats to their ports. In addition, port security 
directors are unaware of any type of unique intelligence 
centers wherein maritime nuclear smuggling intelligence is 
specifically received and analyzed in an effort to connect the 
dots, if you will, and prevent such an incident.
    The suspects of maritime nuclear smuggling efforts are 
numerous. The actions and aggressiveness of ISIL, for example, 
are challenging all aspects of our port security procedures. 
The threat from ISIL emerges on several fronts. First, the size 
of ISIL's force is substantial. Secondly, ISIL is not a 
congruent entity. Its leadership remains in a fractured state 
and, subsequently, subfractions form that are very difficult to 
identify or even trace. Third, ISIL's use of the Internet and 
related systems to recruit both actual soldiers or lone wolves 
has proven to be extremely successful.
    As a former police officer, now as a port security 
director, resources that can be utilized at the local level are 
vitally important. FEMA's [Federal Emergency Management 
Agency's] Port Security Grant Program has been instrumental in 
coordinating port-specific security needs with national and 
global threats.
    The AAPA [American Association of Port Authorities] 
encourages Congress to continue to fund the Port Security Grant 
Program, but also insist that grant funding be directed to 
ports and not diluted to other law enforcement entities that 
are not associated specifically with ports.
    Cybersecurity is also a prime example of emergency security 
concerns since 9/11. Ports are working with stakeholders in 
addressing this very complex issue. For example, in a recent 
survey conducted by the AAPA, it was found that 52 percent of 
our ports have conducted a cybersecurity assessment within the 
last 3 years and 67 of our ports' Area Maritime Security 
Committees have formed a cybersecurity working group.
    Cargo containers have been identified as the most plausible 
mechanism for smuggling nuclear material into the United 
States. Over 11 million containers are shipped to our Nation's 
300 sea and river ports on an annual basis. With the recent 
completion of the Panama Canal expansion, the number of 
containers from foreign ports will dramatically rise.
    Congress previously mandated that all incoming containers 
to the United States be screened overseas. To date, this law 
has not procedurally been incorporated wherein exemptions have 
been employed by the Department of Homeland Security. Recently, 
an extension of the law's implementation was again approved by 
DHS with the support of the AAPA and by also 100 supply chain 
industry stakeholders. It has been estimated that it would cost 
approximately $20 billion to deploy scanning procedures and 
technology at the 700 foreign ports which ship cargo to the 
United States.
    And I mentioned containers. This does not cover what we 
call roll-on, roll-off cargo--RoRo cargo--vehicles. In the Port 
of Baltimore we receive over a half million vehicles a year. 
They are not scanned as they come to the United States.
    In sense of time, I would just like to go to the conclusion 
to whereas--again, our--in summary, our Nation's strategy to 
prevent maritime nuclear smuggling must utilize a holistic 
approach. This strategy should continue to incorporate 
diplomatic engagement; utilize the intelligence community, 
human and technical assets; continue the examination of port 
security protocols to include those which are federally 
mandated and those imposed by port operators themselves; 
increase funding of the Federal Emergency Management Agency's 
Port Security Grant Program to ensure ports are and remain in 
Federal compliance; and the investment of appropriate funding 
levels for Federal agencies, particular CBP, in order for 
current and future legislative mandates to be properly 
implemented.
    Again, I thank you for this opportunity, and I am glad to 
answer any questions directly and explicitly.
    Ms. McSally. Thank you, Mr. Espie. The Chair now recognizes 
Mr. Weakley for 5 minutes.
    Mr. Weakley. Good morning. There is a tremendous interest 
in the intersection between our maritime industry and homeland 
security. Our Nation's water borders far exceed our land 
borders.
    The Great Lakes demonstrate the importance of marine 
homeland security. The southern land border of the United 
States is about 2,000 miles long. However, the Canada-U.S. 
border is three times as long, and much of that is water. I 
represent 14 American companies who operate 56 vessels on the 
Great Lakes. We carry the raw material that drives our economy: 
iron ore and flux stone for steel, aggregate and cement for 
construction, coal for power, and other cargoes. We transport 
100 million tons of cargo a year, and employ 1,600 Americans. 
Our cargoes generate 103,000 jobs with an economic impact of 
$20 billion.
    I will focus the majority of my testimony on how my members 
transition their vessels from homeland security risks to 
resources.
    The Great Lakes are tied together by connecting channels 
and locks. The St. Lawrence Seaway connects us to global trade. 
The navigation channel crosses the U.S.-Canadian border 17 
times in the Detroit-St. Clair River alone. Canadian and 
American fleets compete for the cross-lake cargo. In 2013 it 
was 37 million tons. Canadians carry 93 percent of it; 
Americans carried only 3 million tons.
    Foreign-flagged vessels primarily import steel and export 
grain via the Great Lakes. DHS warns an interruption of 
domestic shipping through a single lock in Michigan would have 
catastrophic impacts on the regional and national economy, and 
would plunge North America into a severe recession. DHS 
estimates that 11 million Americans would become unemployed if 
this lock were inoperable for 6 months. The resulting loss of 
60 million tons of cargo would drive Michigan's unemployment to 
22 percent, exceeding its peak unemployment rate of 15 percent 
during the 2009 recession.
    The Jones Act is the fundamental law of American maritime 
industry, and also a fundamental law of American homeland 
security. It requires that any cargo moving between our ports 
be carried on U.S.-built, U.S.-owned, and U.S.-crewed vessels. 
In other words, American vessels. One of the most important 
benefits of the Jones Act is homeland security, which includes 
the prevention of smuggling and much more.
    Former Senator Slade Gorton wrote, ``helping to plug a 
porous border is a benefit of the Jones Act that is far too 
often overlooked.'' The single most important thing you can do 
to promote maritime homeland security is to support the Jones 
Act. I have worked for the Coast Guard, for an American 
shipping company, and now for LCA [Lake Carriers' Association]. 
I strongly believe the Jones Act is our best line of maritime 
homeland defense.
    Risk is a combination of threat and vulnerability. The 
Coast Guard uses the MARSEC [Maritime Security Threat Level] 
system to relay threat levels. Once notified, we take action. 
The second aspect of risk is vulnerability. LCA members use our 
Coast Guard-approved alternative security plan to minimize our 
vulnerability. We deploy many security measures, including 
access control, perimeter expansion, personnel screening, 
vessel security sweeps, random baggage searches, inspections of 
cargo, and inspections of ship stores. We adjust our security 
profile based on threat level, vessel operations, and 
operational area.
    Professional mariners recognize something afoul, and notify 
the Coast Guard via the Eyes on the Water program. Shipboard 
radars can detect and monitor uncooperative aircraft and 
vessels. We are partnering with a vendor to record radar 
screens and to allow remote access. Providing historical 
pictures can reveal suspicious activity. Remote access provides 
actionable information. These low-cost programs make our 
homeland more secure. We are proud to be full partners.
    Threats to homeland security are daunting. Every day we 
execute security plans, cooperate with law enforcement, 
implement innovative programs, and defend the Jones Act.
    Our goal, as Americans, is to transition from security risk 
to security resource. Thank you.
    Mr. Hunter [presiding]. Thanks, Mr. Weakley. It is kind of 
funny. We were talking about privateering, actually, when James 
Madison--and how he gave--he basically deputized American 
merchant mariners to go protect America's shores and ocean, 
something we are looking at, a little bit tongue in cheek, but 
not really. I mean, because that is what--in San Diego we had 
the same thing, where our sport fishermen are out there on the 
water every day, watching boats going in from Mexico, and they 
know who is good and who is bad. And CBP relies on them 
massively because a lot of these guys are former cops, former 
security specialists, military, and they are on the water every 
day. So thank you.
    Two things. Ms. Grover, one, do you know--has GAO looked 
at--let's look at this, let's look at 90 percent of what the 
Coast Guard does in terms of interdicting drugs and stuff and 
people, compared to what would happen if you have a nuclear 
device go off. Have you looked at the percentage of resources, 
time, and assets that are used for a--for homeland security, 
meaning stopping a weapon of mass destruction, versus all the 
other stuff that the Coast Guard does?
    Ms. Grover. In terms of the Coast Guard's assets, I believe 
that the intent was to dedicate about 18 percent of all of the 
asset resource hours to the ports and coastal waterway security 
missions. So roughly 20 percent off the top. Now, that would 
include more than just port security, strictly.
    So, for a $9 billion-a-year organization--that is just the 
entity part of it, not the personnel part of it, but the people 
go along with entity, so they--that is a significant area of 
work for the Coast Guard.
    Mr. Hunter. So 20 percent, then.
    Ms. Grover. About 18 percent, yes, for 2016 was their 
intent for the resource allocation for the assets.
    Mr. Hunter. I am just trying to balance out the outcome of 
a weapon of mass destruction going off versus what they--how 
much time they spend on this. Because if you combine all the 
other bad stuff that the Coast Guard stops coming in, I was 
just--in Colombia you have got cocaine flowing in like water to 
the U.S. Doesn't seem to be any way to stop it. And a lot of 
the Members that were with us asked a question, ``Well, hey, 
what if we took our focus off the drugs and put it on the 
weapons of mass destruction? What more could we interdict, and 
how much safer would we be?''
    I am curious if the GAO would look at that at some point in 
the future, saying if the Coast Guard spends 40 percent of its 
time interdicting weapons of mass destruction, or trying to, 
and keeping an eye out for those things specifically, how much 
does that decrease the probability or likelihood of a weapon 
like that being put on U.S. soil?
    Ms. Grover. Yes, we would be happy to do that in the 
future.
    Mr. Hunter. That would be great. I think that is important, 
because then the Coast Guard could look at what they are doing 
and say, ``Hey, maybe we should spend more time on this.''
    Dr. Canavan, I guess the big question is this. Ms. Hahn 
asked--what is the gentleman's name from CBP? Mr. Owens. He 
said that they have devices, they have technology right now to 
be able to look at everything, but not without a human person 
there, without a person there. And I have seen this stuff.
    SAIC in San Diego has got a system that they are selling 
all over the world--not to us, but all over the world, but it 
still takes a person there, trained to recognize that that 
thing--that there is something shielded, that the neutrinos are 
acting weird around some circular device, or that there's 
weapons or drugs or--it still takes a person. And I guess their 
answer is, if you have a person that slows things down 
massively--that was basically their answer to Ms. Hahn's 
question was it makes things too slow, it is going to back it 
up. It is going to be like TSA [Transportation Security 
Administration] at the airport, but in our ports. And nobody 
wants that. Nobody wants a TSA in our ports, right? They are 
doing bad enough already, just with humans, right?
    So I guess the question is what exists, if anything, right 
now, where it doesn't take a person?
    Dr. Canavan. Well, that is what I am saying. It is 
unfortunate Ms. Hahn stepped out, because that----
    Mr. Hunter. Turn your mic on, please.
    Dr. Canavan. Have I done it again, sir? The--that is 
exactly what I was shooting for, was a system that had a--if 
you have a very high signal-to-noise ratio, which is what you 
can get from math that I won't go into here----
    Mr. Hunter. Thank you.
    Dr. Canavan. Then you have a very low false alarm rate to 
where you don't have any need for a human intervention. So that 
is----
    Mr. Hunter. I see.
    Dr. Canavan. At the top level, that is the answer. The 
other answer is that whether you use x rays or whatever, the--
they are only sensitive to mass. They don't know what the mass 
is. To them a bomb looks--has the same kind of material in it--
as a ball bearing. The reason you have a human operator there 
to look at these from all different angles, having seen all 
this many times before, to add human experience, is because you 
have a lousy signal to start with. All you know is that 
something bounced a lot of x rays back. With fast neutron 
interrogation, you actually are stimulating the core of the 
thing you are looking for to release fission neutrons, which 
have a unique and specific and high signature, which can't be 
confused with hardly anything else in the universe.
    So you have a great signature to start with, a real 
signature, and not just some x rays getting bounced around. 
Plus you have a very high signal-to-noise ratio. That is why 
the goal that I had was not only to find a nuclear weapon, but 
to be able to candle everything that went through a port. And I 
think that is what I have tried to demonstrate in the testimony 
that I prepared.
    Incidentally, I would like to ask that that be submitted 
for the record. I forgot to ask before.
    Mr. Hunter. Say again. Oh, without objection.
    So I think my last thing is I think what the Coast Guard is 
going to do, and what DHS is going to do, is try to get the 
100-percent perfect solution, which will take them a decade. It 
will take billions of dollars, and they are going to try to be 
able to find everything from weapons to cocaine to weapons of 
mass destruction, as opposed to just really narrowing it down 
to weapons of mass destruction, which is what I think they 
should totally focus on to the detriment of some of the other 
sectors, like drug interdiction and human smuggling and 
weapons.
    But you are saying that it is possible to not have a human 
to check for weapons of mass destruction, nuclear devices, with 
a very low false positive rate, everything that comes in very 
quickly?
    Dr. Canavan. Yes, sir. That is what I was shooting at. And 
like I say, there are two things. One thing is that there is a 
real nuclear signature from a nuclear weapon. Nothing else 
looks like it when you hit it with fast neutrons. So the one 
thing is you have a real signature that you don't with all the 
others. I am not criticizing what these other groups are doing. 
You do what you can. If they just have systems that have very 
indirect signatures, I think they are working very hard to get 
the very best they can out of that.
    What I am saying here is that for reasons that nobody 
bothered to look at for some reason, there is a system that 
gives you the combination of a unique nuclear signature and a 
very high signal-to-noise ratio, low false alarm rate that sort 
of gets you away from reliance on all of these other signatures 
that are very indirect.
    Mr. Hunter. What system is that?
    Dr. Canavan. Sir?
    Mr. Hunter. What system is that? Does that system exist? I 
mean does a company make that?
    Dr. Canavan. No. This is my own little research project. 
Well, maybe I should form a company.
    Mr. Hunter. You want to talk to Gene Ray in San Diego. They 
have a neutrino system that I have seen tested. They had a 
lead-encased nuclear device--not a nuclear device, but lead-
encased nuke stuff in a car, and they have a system where it 
does exactly what you say. And they are selling it to other 
countries, not to us.
    Dr. Canavan. Well, the neutrinos are nice, but they don't 
interact very well, and the sources are terrible. But the thing 
that is popular right now, the closest thing, is muon 
detection, and that is what a company is testing in Freeport, 
in the Bahamas.
    Mr. Hunter. Yes.
    Dr. Canavan. And that works well. But again, it just 
measures mass, it does not measure nuclear signatures.
    And so, you know, I don't want to criticize what other 
people are doing. You do--you try--everybody is trying to put 
together a good system, based on whatever we have, which ain't 
much. After 9/11 it was basically nothing, right?
    Mr. Hunter. Right.
    Dr. Canavan. So people are trying very hard to do the right 
thing. I am just saying I think this is a very nice system 
which, for some reason, we just skipped over. And I would like 
to see somebody pick it up and do it.
    Mr. Hunter. Thank you, Doctor.
    Ms. McSally?
    Ms. McSally. Thank you, Mr. Chairman.
    Ms. Grover, CBP testified that they are scanning--although 
there is limitations to that--3 to 4 percent of containers that 
are coming in, based on their high-risk designation. You just 
testified that in the sample that you were talking about from a 
couple years ago, of the group that they called high risk, it 
only successfully identified 6 percent accurately to be high 
risk, missing 94 percent of the actual high-risk containers is 
what I understood. That is a pretty dismal number.
    You since said that they have improved. Are we now at 7 
percent and we are missing 93 percent, or where are we right 
now? That was very disconcerting to hear.
    Ms. Grover. So let's take a minute and talk about this. The 
3- to 4-percent scanning, I think what they were referring to 
is the percentage of containers that are ultimately subject to 
the x-ray exam, the nonintrusive inspection exam----
    Ms. McSally. Right.
    Ms. Grover [continuing]. Right, that takes an image----
    Ms. McSally. But their whole briefing and everything 
yesterday was based on them identifying high threat, high risk.
    Ms. Grover. Right. So roughly 1 percent of the cargo 
shipments are identified as high risk. And those are the ones 
that then are required to go through the NII [nonintrusive 
inspection] so that there is an image that is taken, and the 
image has to be read by a person.
    Ms. McSally. Right.
    Ms. Grover. And the question is then do we unpack the 
container to find out what this is, or does it look like it is 
OK and we can let it go through, right? And the procedure 
varies at the different ports, based on what the rules are.
    Ms. McSally. Right.
    Ms. Grover. So, I think we are all in agreement that that 
is, for the most part, occurring as intended, right? Some room 
for improvement in the accurate identification of high-risk----
    Ms. McSally. But you said previously----
    Ms. Grover. Right. Right, right----
    Ms. McSally [continuing]. It was 94 percent missed.
    Ms. Grover. Right. So this is a proxy measure that CBP uses 
to get a handle on how well does this ATS [Advanced Targeting 
System] do at identifying high-risk cargo, right? Because they 
don't really know the true accuracy of that system, because you 
don't know what you----
    Ms. McSally. What you missed.
    Ms. Grover [continuing]. Have missed, right?
    Ms. McSally. Right.
    Ms. Grover. Because 99 percent of the shipments----
    Ms. McSally. Right.
    Ms. Grover [continuing]. Are determined to be low or medium 
risk, and generally speaking, moving on through. So we don't 
actually know what we have missed.
    Ms. McSally. So did I misunderstand----
    Ms. Grover. But----
    Ms. McSally [continuing]. That 6 percent and 94 percent?
    Ms. Grover. So--well, of the containers that are unpacked, 
right, of the shipments that are actually subject to physical 
exam, some number of those have contraband. And CBP keeps 
records of that. And then they go back and they look and they 
say, OK, this shipment was unpacked for whatever reason, 
because it was high-risk or random or for some other reason. Of 
the ones that we actually looked at, how many had contraband? 
And then let's go back to the original designation and say was 
it originally designated as high risk by the system or not.
    And so, yes, for the 9 months or so of data that we looked 
at in 2011, 2012, the system had only identified 6 percent as 
high risk. So 94 percent were not. Now, subsequent to that, in 
the process of responding to our recommendations, the last two 
quarters of data that I saw were somewhere more in the 
neighborhood of 25 to 50 percent, which is significantly 
better.
    Ms. McSally. Twenty-five to fifty correctly? There are 50 
to 75 percent still missed?
    Ms. Grover. Yes, and that is data from the, you know, 
roughly late 2014----
    Ms. McSally. OK.
    Ms. Grover [continuing]. Time period. So I don't have 
current data. But, yes, those are the last numbers we----
    Ms. McSally. So this is still a problem. If our whole model 
is based on them identifying high risk, and we are still 
somewhere in, you know, less than 50 percent being correctly 
identified, then that is still a problem.
    Ms. Grover. They are still working on it.
    Ms. McSally. OK. Mr. Espie, what you shared about not 
getting access to classified information, you know, port 
directors not having a sense of what the risks are, we have 
heard similar things across the private sector in homeland 
security related to those running sports arenas and other 
potential targets and vulnerabilities for terrorist attack or 
terrorist activity. This has been of high interest to me.
    So you have no access to fusion centers, no--I just want to 
make sure we clarify. No access to fusion centers. Would you be 
interested in having access to fusion centers, you know, 
classified information briefings for appropriate people at the 
port? I mean this seems like a gaping hole. We have done better 
sharing information across Federal agencies, but where we are 
really missing is Federal down to State and local, and then 
with the private sector is the real gaping hole.
    So, could you just clarify what you would desire, as a 
solution?
    Mr. Espie. Thank you, yes. I am fortunate, though. I will 
note that I do have a secret clearance, and the only reason I 
do is because I pushed for it through our Baltimore FBI office 
and through my previous holdings of certain clearances. So I am 
one of the fortunate ones, probably one of the maybe three or 
four in the country that have a clearance, in terms of port 
security directors. So I would look for a model following 9/11 
when you saw local police departments at the captain level or 
so gaining clearances through becoming members of the executive 
JTTF [Joint Terrorism Task Force] structure within the FBI 
offices. I would certainly support that.
    But overall, even though I have that clearance, I receive 
nothing. I do not--I am not invited to classified briefings, I 
do not receive classified information via DHS, Coast Guard. The 
Bureau, they have just recently offered me to come to 
classified executive-type briefings. They are held once a 
month, so I am going to take advantage of that.
    I am confident that if there was information I needed to 
know, that I would be provided that from our Maryland fusion 
center. However, I have been here 5 years and have received 
zero.
    Ms. McSally. So, Mr. Chairman, I think this is an area to 
follow up on. You know, we have been addressing this issue with 
trying to increase access for the private sector. I think we 
could probably work together across our committees to maybe 
work on some initiatives on this.
    Thank you, Mr. Chairman. I yield back.
    Mr. Hunter. That is an easy fix. That is a quick, easy fix, 
fixing that.
    Mr. Garamendi, you are recognized.
    Mr. Garamendi. Chair McSally, you seem to always anticipate 
my questions. And you were on to one that is very important. I 
was just thinking as you were asking your question about the 
recent report that was produced by the French Government on the 
terrorist attack in France. And the one thing that was most 
prominent in that report and in other reports is the inability 
or the lack of sharing of information between the various 
elements of the safety net, the various police, the 
intelligence community, and the like. And this is a question 
that Mr. Espie just raised, and it is one that really needs to 
have our attention. In all of these situations it comes back to 
the lack of information being passed on through the various 
organizations.
    Leaving that aside, which does require our continued 
attention, I want to go to an issue that I know you raised, Mr. 
Espie, and that is the funding for port security. We heard from 
the earlier testimony from the Customs and Border Protection 
that they needed additional funding. I think they talked some 
500 personnel. It wasn't clear where they needed to use that. I 
suspect that--I hope that that is in the ports.
    Mr. Espie, can you speak directly to that issue?
    Mr. Espie. Yes, sir. Two issues. CBP, first of all, at the 
Port of Baltimore, particularly after the budget concerns a few 
years ago to whereas it appeared that DHS was negating some of 
their requests, we have a sense of feel at the Port of 
Baltimore that CBP is very strapped. In their inspections of 
cargo within the sheds at our marine terminal, number one, 
the--we see personnel working the RPMs [radiation portal 
monitors] during the day, it is a long day. I think they are 
very bored. I don't think they have enough changeover during 
the day.
    So basically, when these containers leave our ports through 
going through the RPMs, you are going to have a GS-11 or GS-12, 
in terms of their morale, motivation, to safeguard a potential 
nuclear weapon leaving our port and going out to Chicago or the 
Midwest or--as far as the way we ship.
    And also we have had issues at our cruise terminal. We have 
over 115 cruises through Carnival and Royal Caribbean, through 
our cruise terminal there. And when there is a shortage, 
seemingly, when we have--we mandate more power, they advise 
that they do not have the overtime to pay their officers. So 
that is a concern. So that is where you see that CBP is going 
to start potentially charging port operators for extra 
services, to include the RPMs. We have been advised that if the 
RPMs are replaced, that it will be the port operator paying for 
those and not CBP. So right now we are going through the 
maintenance phase. So those are concerns.
    Secondly, the Federal Port Security Grant Program, we live 
and die by that. That is our physical security. We would have 
no physical security at the Port of Baltimore, or at least not 
in the realm that we have now, which we feel we have one of the 
most innovative physical security programs in the country. We 
would be in desperate needs. The State budgeting for that right 
now, we do--when we receive a match or a grant, it is 25 
percent. So the State's ability to cover the physical security 
necessary is very difficult and short. So we would hope that 
that program would stay intact.
    And also we see----
    Mr. Garamendi. I am going to interrupt you.
    Mr. Espie. Yes, sir.
    Mr. Garamendi. Because I am out of time, literally out of 
time. I would appreciate it if the--your association, the Port 
Security Association, could develop a specific memo to us on 
those kinds of shortcomings, and it is nationally as well as 
with the Port of Baltimore.
    Mr. Espie. Yes, sir.
    Mr. Garamendi. A final point is that the layer--the 
security through layered operations, beginning way off in 
Kazakhstan all the way back home, becomes really important. 
There is a funding issue in each one of these layers, and we 
really need to get at the funding issues, as well as the 
efficiency of those particular units along the way.
    And so, these kinds of hearings are very, very important, 
and particularly important that we do the combined hearing that 
the two chairmen have put together here. That is really an 
important piece of this, so that we are--at least we are 
coordinated and knowledgeable with what we are doing here. I 
want to really focus--and I will ask a series of questions, if 
the chairs would allow me to do so, to the various witnesses 
about specific funding shortfalls and the efficiency of the 
programs that you are operating.
    Final point is, Mr. Canavan, you have been here twice and 
you have talked about a specific type of detection advice--
device.
    We had earlier Ms. Harrington from NNSA [National Nuclear 
Security Administration] here. Now, as far as I know, Los 
Alamos is part of NNSA. And I am curious, and I will get into 
it from Ms. Harrington as well as from you, about your device 
and the applicability of that and the utility of that 
particular mechanism that you have talked about as a detection 
mechanism.
    So, with that, I yield.
    Mr. Hunter. I thank the gentleman. Mr. Gibbs?
    Mr. Gibbs. Thanks, Mr. Chairman. I represent the Great 
Lakes region, so I want to talk to Mr. Weakley.
    Great to see you, Jim. In your testimony you talk about the 
Great Lakes States, and the two Canadian provinces; if they 
were an entity in themselves, they would be the third largest 
economy. So we know how important the Great Lakes is, and all 
the commerce you move. And I am really concerned.
    And my other subcommittee, I am chairman of the 
Subcommittee on Water Resources and Environment. I have 
stressed so much with the Army Corps of Engineers about the 
importance of the Soo lock and the Poe lock, and that is--Poe 
lock is over 100 years old. And my understanding, they built 
cofferdams years ago and it is just sitting--seems like there 
is a reluctance with the administration to want to, you know, 
build new locks there and replace them.
    So there's kind of two questions here, two themes. We have 
the infrastructure issue, and then we have security of the 
locks. I want to get both of that. But the first part of that 
is on the Poe lock or the Soo locks there, if that were to shut 
down, what happens to the Great Lakes?
    Mr. Weakley. Well, sir, according to the DHS report, if the 
lock, a single lock--the Poe, as you point out--is down for 6 
months, North America is in a recession equal to or greater 
than the one that we just experienced.
    And also in a resource-based recession there is no fiscal 
policy you can do to countermand that. So the closest thing we 
have experienced as a Nation is the oil embargo from the 1970s. 
It will wipe out the automobile industry, it will wipe out the 
domestic steel industry. And really, it is a--it is the most 
critical piece of infrastructure----
    Mr. Gibbs. I think we got the picture. I think during World 
War II they were so concerned about that I think they had, I 
don't know----
    Mr. Weakley. I think it was 20,000 troops stationed in 
Michigan----
    Mr. Gibbs. 20,000 troops regarding that.
    Mr. Weakley. Yes, sir.
    Mr. Gibbs. So I have stressed so much on the Army Corps how 
important this is, and there is this reluctance.
    Do you know if there has been any initial cost estimates to 
do the work there?
    Mr. Weakley. So where we are at now is the Corps is engaged 
in a 2-year economic reevaluation report, basically to 
recalculate the benefit to cost ratio. To give the Corps 
credit, they have acknowledged that they made some egregious 
false assumptions in their latest 2004 report. That was a 10-
year process for them to make that admission. And now they are 
recalculating the ratio. They said they could condense the 3-
year process into 2 years, which means in December of 2017 they 
should be done with their math, which means probably December--
--
    Mr. Gibbs. I told Secretary Darcy in my subcommittee 
hearing that we could sit down right now and in 15 minutes get 
a cost estimate benefit ratio. That should be a no-brainer.
    Mr. Weakley. Yes, sir.
    Mr. Gibbs. There is just a huge reluctance, I think, with 
the administration to want to move forward on that.
    OK. So that is the infrastructure issue. We know what 
happens. This ought to be a top priority for our national 
economic security and security in general.
    What are your thoughts in the Great Lakes are, in the St. 
Lawrence and all that, on overall security of our--of those 
assets? We know if that lock breaks the economic catastrophe it 
would be to the country. But are you satisfied with the 
security arrangements by the Coast Guard, whoever, to make sure 
that the lock isn't attacked, or any of the locks?
    Mr. Weakley. Well, I think they could do more. I know the 
Coast Guard has a security zone in the area. The Corps owns the 
facility, so they have got primary responsibility. I was just 
up there a couple weeks ago. They are executing a new security 
contract.
    They do, to their credit, make a distinction between the 
American-flag vessels and the foreign vessels that go through. 
They don't allow the foreign sailors off the ships. We are 
allowed off our ships to handle lines, and stuff like that. 
Clearly, they don't have the 20,000 troops that they did in 
World War II.
    I think the Corps is beginning to recognize the criticality 
of that piece of infrastructure. And from a--I am very excited 
about what we are doing with our radar to create more of a 
visibility and provide real actionable material to the----
    Mr. Gibbs. And my last question--we are out of time, but 
are you--your companies that you represent, I think you said 15 
of them, I forget how many you represent, working with Customs 
and Border Protection, the Coast Guard, and all their law 
enforcement moving this commerce from the Great Lakes, are you 
satisfied with the relationship? What are your thoughts?
    Mr. Weakley. So, as a former Coast Guard officer, I will 
expose my bias. We work really well with the Coast Guard. I 
think with CBP it varies from port to port, and actually it 
varies from cargo to cargo, and sometimes the distance, whether 
you are within the Federal-recognized port, as well. I think 
that relationship could be better.
    Giving the Coast Guard credit, they are more centralized. 
So if there is a problem with the Coast Guard, we can go to the 
district commander. With CBP there is no regional office. So 
there is a headquarters level and then they are very autonomous 
at the local level. I think there could be room for improvement 
along the CBP from the relationship aspect, as well as the 
ability to execute.
    Mr. Gibbs. OK, thank you.
    Thank you, Mr. Chairman, I yield back.
    Thanks for your service.
    Mr. Hunter. I thank the gentleman. For a minute I thought 
you were talking about Polacks.
    [Laughter.]
    Mr. Hunter. Now I know you weren't. Poe lock.
    Mr. Gibbs. You know, I know San Diego is important, but 
Great Lakes are really important, too.
    Mr. Hunter. Ms. Jackson Lee, you are recognized.
    Ms. Jackson Lee. I thank the chairman and ranking member 
for their courtesies, and thank the witnesses as well as the 
witnesses on panel 1. I was delayed because of a markup in the 
Judiciary Committee, which fell under my subcommittee. But this 
is an important hearing, and I want to acknowledge panel 1 and 
thank panel 2 for their testimony.
    Let me start by just citing part of the words said by 
Director Dave Espie in his testimony, that the threat of 
maritime terrorist smuggling appears to be increasing, possibly 
in correlation with the flight of Syrian refugees to Europe. 
And he noted an incident, I think, that occurred in Baltimore. 
But I believe that it is clearly an important hearing that we 
are addressing today in an examination of the maritime nuclear 
smuggling threat and other port security and smuggling risks in 
the United States.
    I think our challenge, as Members of Congress, is to find 
the how-to's or how does, but also the solutions to protect the 
American people. I am particularly interested, of course, as a 
former ranking member of our Border and Maritime Security 
Subcommittee, but as well as a Member of Congress that has as 
part of her jurisdiction one of the major ports of the United 
States, and that is the Houston port.
    I am a strong supporter of the Securing the Cities program, 
and as well the monies that you all need, Mr. Espie, in doing 
your job. So let me start off first by saying we will not solve 
this problem by ignoring the fact that resources are needed, 
not throwing money away, but fully funding the potential of 
what our ports and what the Nation faces.
    The Securing the Cities program mandated legislation to 
assist State, local, tribal, and territorial governments in 
creating and implementing and perfecting existing structures 
for coordinated and integrated detection and interdiction of 
nuclear or other radiological materials that are out of 
regulatory control, and to support a wide matrix to deal with 
identifying reporting on nuclear and other radioactive 
materials, provide resources for detection analysis 
communication, facilitate the establishment of protocol and 
processes of effectively responding to threats--responding to 
threats is key--and designating participating jurisdiction from 
high-risk areas.
    Our city has now received $30 million over a 5-year period, 
which I am very glad to advocate and secure under the Securing 
the Cities grant, and just received $3.5 million. And in his 
absence I want to thank Dr. Brasure, who was in my district, as 
we announced this very important step by Houston, creating or 
working with the DHS Domestic Nuclear Detection Office to build 
a robust regional nuclear detection capability.
    So, I am going to pursue a line of questioning in the time 
that I have remaining, and let me quickly do so--is to Dr. 
Canavan, if you can remember my questions, please, I would 
appreciate it. How accurately can the signature of radiological 
and nuclear material tell the source of that material? That is 
very important because we are talking about ships and 
smuggling.
    To Ms. Grover, thank you for your work in the GAO. In your 
testimony you cite GAO's 2013 report which concluded that CBP 
had not regularly assessed foreign ports for risk to cargo 
since 2005. It is my understanding that they have since 
developed a port risk matrix and priority map to help assess 
whether changes need to be made to contain a security in each 
of their ports. Is CBP utilizing this matrix and map to assess 
CSI [Container Security Initiative] ports? Are there other 
changes that should be made to ensure the CSI program is 
functioning as intended? There lies a source of potential 
nuclear material.
    And finally, to Mr. Espie, you are one of the first 
responders outside of the beltway. All across America you are 
dealing with port security, formerly with the FBI. Are 
resources going to local entities like yourself crucial in 
making sure that we have the cover, the resources, the 
detection that needs to be in place for something as 
particularly indicting, explosive, and, if you will, 
catastrophic, as a particular or potential nuclear incident by 
something being smuggled into your port?
    I would yield first to Dr. Canavan. Thank you.
    Dr. Canavan. To me, ma'am?
    Ms. Jackson Lee. I yield first to you, sir, for the 
question. Did you hear the question that I asked?
    Dr. Canavan. Well, I thought the question had to do with--
--
    Ms. Jackson Lee. Let me read your question, sir. How 
accurately can the signature of radiological and nuclear 
material tell the source of that material?
    Dr. Canavan. With radiological material, it is a little bit 
difficult, because that is just sort of nuclear garbage, and 
there is lots of it around the world. And you might get lucky, 
and you might make an attribution, but I find that unlikely.
    With nuclear weapons material, attribution is a little bit 
cleaner--particularly if you intercept it before detonation--
because with--particularly with plutonium, the different groups 
that make plutonium have different preferred ways of doing it, 
so there might be some intermediate group that got control of 
it or delivered it, but you have a fighting chance of knowing 
who made it in the first place.
    So, the attribution is kind of all across the spectrum. I 
would say very little likelihood of attribution on the garbage 
side, reasonable chance on the plutonium. For uranium, which is 
a big problem right now, you know, it is just how long you want 
to spend your centrifuges, your--and they are all derivatives 
of Urenco's. Some people try to argue that you can do an 
attribution there on the basis of their details. I kind of 
doubt it, although that last statement is just my personal 
guess.
    Ms. Jackson Lee. Not at all, Doctor, thank you. Just one 
followup. Can the trash that is hardest to detect provide major 
damage and danger?
    Dr. Canavan. No, ma'am. I didn't mean to say it couldn't 
cause damage.
    Ms. Jackson Lee. No, I am just asking.
    Dr. Canavan. The thing is that the radiological threats, 
the dirty bombs that we----
    Ms. Jackson Lee. Right.
    Dr. Canavan [continuing]. We have been working on for quite 
some time, can cause a lot of economic damage because you can 
spread them on somebody's street, or throw them in a building, 
and then that is a real cost problem. But once that happens, 
people will generally get the heck out of the way, so the loss 
of life is smaller for that kind of weapon.
    I come from a place where we worry a little bit less about 
radiological insults than other places.
    Ms. Jackson Lee. Yes.
    Dr. Canavan. When I first went to Los Alamos, I think we 
had the universe's only known open pit plutonium mine. We dug 
up the old plutonium residue from the war, moved it out, and 
covered it with a thick layer of dirt. It took time and effort, 
but worked well. So I may have a more casual attitude than 
others towards dirty bombs. They are a real problem because 
their materials are more accessible than those for weapons, but 
they are not as catastrophic--particularly in terms of loss of 
life. But I have experts here, right?
    Ms. Jackson Lee. Mr. Chairman, thank you for your courtesy. 
If I can just--thank you, Doctor--if I could just allow both 
Ms. Grover and Mr. Espie to finish, and I would be happy to 
yield back.
    Ms. Grover, you heard my question?
    Ms. Grover. Yes, your question was about CBP's Container 
Security Initiative program?
    Ms. Jackson Lee. Yes.
    Ms. Grover. Which is an initiative under which CBP 
targeters are placed at foreign ports, and it is operating at 
about 60 ports right now. And so your observation is that in 
2013 GAO found that while those ports had initially been 
selected based on volume and other risk factors that, indeed, 
the circumstances across the world can change, and we found 
that CBP had not revisited the risk issues since around 2005.
    And so, when GAO went in and looked at the situation, we 
found that there were--some of the ports participating were not 
high risk and, in fact, that there were not CBP targeters at 
other very high-risk ports.
    And so, yes, as you noted, CBP has developed a port risk 
matrix and a map. They plan to update it every year, and to 
apply that knowledge against the locations of the 60 ports 
where they are working. And so if they follow through on that, 
and use it, then they will at least have a good understanding 
of the extent to which the program was operating at the highest 
risk ports. But that remains to be seen, going forward, and 
then to the extent to which they can make adjustments as 
appropriate.
    Ms. Jackson Lee. So we need to be monitoring that. And are 
you going to be assessing them again?
    Ms. Grover. We will continue to keep track of their use of 
that, yes.
    Ms. Jackson Lee. Thank you. Mr. Espie, on your----
    Mr. Espie. Yes, ma'am. Thank you.
    Ms. Jackson Lee [continuing]. Comments along with 
resources.
    Mr. Espie. Regarding funding--yes, ma'am. Regarding 
funding, of course, at the port we have certain mandates we 
must follow, the Maritime Transportation Security Act, and then 
we have Federal mandates that come under the CBP jurisdiction, 
specifically screening for nuclear smuggling, for example.
    Do we have the resources, Port of Baltimore? No. You heard 
the percentages of the screening that takes place overseas, or 
once it comes to the port. I am there every day. I watch this. 
I see a container ship have 8,000 TEUs on it. How many do they 
screen a day? Twenty-five, thirty, maybe. You line up in a row, 
they go through the VACIS [Vehicle and Cargo Inspection System] 
machine, the x-ray machine, and they--while the other ones are 
put into storage and units and they are shipped out the next 
couple days. So the only security device you have left is the 
RPM machine, which in some cases is 10 years old, the quality 
is a question, and so forth.
    The manpower is certainly a question for CBP because, 
again, you watch the VACIS, the screening operation going on. 
You have usually two or three CBP personnel there, the rest are 
at the screening sheds. And then you will have one or two or 
three at the RPM exits out of the terminal. So it is a great 
problem for us and CBP, for the State of Maryland, and really, 
the citizens of the United States.
    Ms. Jackson Lee. On the overall issue, then, resources are 
needed across--you are talking about your State, but if you are 
an example, it would mean that it happens elsewhere, as well.
    Mr. Espie. Yes, ma'am. I am a member of the AAPA Security 
Committee. It is consistent throughout the United States.
    Ms. Jackson Lee. Thank you. Mr. Chairman, I would like--
thank you for your testimony--Mr. Chairman, I would like to ask 
unanimous consent to put into the record an article by MarEx 
dated July 6, ``U.S. Ports Want More Action on Dirty Bomb 
Prevention.''
    Mr. Hunter. Without objection.
    [The article is on pages 116-117.]
    Ms. Jackson Lee. I thank you. I yield back.
    Mr. Hunter. I thank the gentlelady. Well, here is what we 
are trying to do here. We are trying to shape what we feel is 
going to be probably the most dangerous thing that we can 
encounter as a country, which is a nuclear device on American 
soil. It is worse than someone shooting up a mall, it is--I 
mean that is catastrophic. We all agree on that. And I think we 
are on the precipice of a--let's call it nuclear material being 
ubiquitous, much more than it is now. Once the Iranians start 
getting more material, once the North Koreans get better at 
creating more bad stuff, you are going to have nuclear devices, 
nuclear material, weaponized nuclear material, I think, 
throughout the entire world.
    And I think if we all focus on a lot of different stuff, 
but nothing that can affect the American people in the country 
like a nuclear device going off that is possibly attributable 
to a nation-state or possibly not. We have no retaliation, no 
way to get back at somebody--nonstate actors, of course--that 
will easily and happily throw their lives away to kill 
Americans.
    Anyway, that is what we are doing here. That is why Ms. 
McSally and I are trying to shape this, because we are--I think 
we are still in a relative safe zone where there is not a lot 
of material out there, and we know who has it, we know where 
they have it, we know how to stop it in the furthest reaches of 
the world before it even gets to the U.S. or gets in the hands 
of bad actors, right? But I think that is coming to an end. I 
think we probably have a 5- to 10-year window, and then we need 
to have something where we check everything, because it only 
takes once, right?
    And with that, thank you all for being here. Thanks for 
your testimony, thanks for traveling out here. And the hearing 
is adjourned.
    [Whereupon, at 12:32 p.m., the subcommittees were 
adjourned.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                         [all]
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
